<html>
<title> - BEST PRACTICES IN VETERANS EDUCATION AND TRANSITION TO CIVILIAN LIFE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  BEST PRACTICES IN VETERANS EDUCATION AND TRANSITION TO CIVILIAN LIFE

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       FRIDAY, NOVEMBER 17, 2017

                               __________

                           Serial No. 115-38

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
 
       

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                
31-430                  WASHINGTON : 2019              

        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                       Friday, November 17, 2017

                                                                   Page

Best Practices In Veterans Education And Transition To Civilian 
  Life...........................................................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     6

                               WITNESSES

Dr. Tedd Mitchell, President, Health Sciences Center, Texas Tech 
  University.....................................................     9
    Prepared Statement...........................................    37
Mr. Aaron Kyle Chapman, USMC, School of Nursing Veteran Liaison, 
  Health Sciences Center, Texas Tech University..................    11
    Prepared Statement...........................................    39
Colonel Lou Ortiz, USAF (Ret.), Director, Military and Veterans 
  Programs, Texas Tech University................................    12
    Prepared Statement...........................................    40
Ms. Nicole Meyer, USAF, Student Veteran, Bachelor of Science in 
  Nursing, Angelo State University...............................    15
    Prepared Statement...........................................    42
Mr. Ikaika (Kai) Iuta, USA, Student Veteran, Bachelor of Arts in 
  Psychology, Texas Tech University..............................    16
    Prepared Statement...........................................    43
Colonel David J. Lewis, USAF (Ret.), Director of Veterans 
  Services, StarCare Specialty Health System.....................    18
    Prepared Statement...........................................    44


  BEST PRACTICES IN VETERANS EDUCATION AND TRANSITION TO CIVILIAN LIFE

                              ----------                              


                       Friday, November 17, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:00 p.m., at 
the Texas Tech University System Office Building, Room 104, 
1508 Knoxville Avenue, Lubbock, TX, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington and O'Rourke.

             STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everybody. The Subcommittee 
will come to order.
    I thank everybody for coming out today. I see a lot of 
friendly faces and a lot of the veteran community here. I can't 
tell you how proud I am to represent West Texas. I want to say 
from the outset that my greatest honor in the United States 
House as a new Member is to serve on this Veterans' Affairs 
Committee and serve those who have served us so bravely and 
well.
    So, this is a special treat for me, Mr. Ranking Member, to 
have this hearing. I think this is the first VA hearing in this 
district ever, and it is the first time we have had a hearing 
in 15 years. The last time was for a farm bill. But I can't 
think of a better reflection of the heart of West Texas than 
the love for our troops and our veterans.
    So this is truly a great day and a beautiful day to be in 
love with Texas and on the campus of Texas Tech University. I 
want to recognize our Chancellor of Texas Tech University 
System. I don't know if he is still here.
    There he is.
    Ladies and gentlemen, Robert Duncan.
    [Applause.]
    Mr. Arrington. Don't be bashful, now. Give him a hand. It 
is a tough job.
    [Applause.]
    Mr. Arrington. Before we introduce our panelists and get 
into the formal proceedings, I want to get this kicked off the 
West Texas way, the right way, and with prayer. I want to 
consecrate our time together in prayer.
    I am going to ask and it is my honor to invite a World War 
II veteran, Chaplain Phil Crenshaw, to the podium to lead us in 
prayer. Mr. Crenshaw was enlisted in the United States Army in 
1943 when he was 21 years old and that same year was sent to 
Okinawa, Japan.
    Sir, it is an honor to have you here this morning. Thank 
you for your service and all you have done with your colleagues 
in every theater to keep us safe and free. The podium is yours, 
sir.
    Mr. Crenshaw. A privilege and an honor.
    [Prayer.]
    Mr. Arrington. Thank you, Mr. Crenshaw.
    Now we will ask the Members of the Texas Tech University 
ROTC to come forward and present our Nation's colors.
    [Presentation of Colors.]
    Mr. Arrington. Ladies and gentlemen, representing Gold Star 
families, as they say, all gave some, some gave all, but Gold 
Star families gave all. They gave the most precious gift in 
their family member. We want to honor them, so I am going to 
ask Ms. Christie Garza if she would come up here and join me 
and my colleague and lead us in the Pledge of Allegiance. We 
recognize her father, Santiago.
    Sir, we appreciate your sacrifice for our country. Our 
prayers and thoughts are always with you guys.
    [Pledge of Allegiance.]
    Mr. Arrington. Okay. Finally, I would like Ms. Carly 
Porterfield to come forward and sing the National Anthem. I 
would ask that our Chancellor not sing while she is singing.
    [Laughter.]
    [National Anthem.]
    [Applause.]
    Mr. Arrington. Everybody, you may be seated. Now you can 
all be seated.
    Carly, that was a beautiful rendition of our National 
Anthem. Ted Mitchell doesn't sing that well in the shower, I 
guarantee you.
    [Laughter.]
    Mr. Arrington. I wouldn't know, but--
    [Laughter.]
    Mr. Arrington [continued]. Are we on the record? I hope 
not.
    [Laughter.]
    Mr. Arrington. Okay. Well, I have some opening remarks, and 
I will try to keep them brief because we really want to hear 
from our panelists and get into the meat of our hearing.
    I do have the privilege, as I said, of representing 
District 19, and because of Dr. Phil Roe I also have the 
distinct pleasure and privilege of chairing this Subcommittee 
on Economy Opportunity. The Subcommittee that Beto O'Rourke and 
I have the responsibility to lead and to facilitate oversees 
programs that provide for a seamless and productive transition 
for our veterans, from the military to their civilian life. We 
want to ensure that our veterans have the education and the 
training and the other tools to maximize their employment 
opportunities and to maximize their quality of life.
    These programs include the GI Bill, the Transition 
Assistance Program, the Home Loan Service Program, vocational 
training for disabled veterans, and other services that assist 
our veterans in achieving economic success in their civilian 
lives.
    I am extremely pleased with my experience on the VA 
Committee and on this Subcommittee. I know that there is a 
great deal of frustration in this country on account of 
Congress not working, not working for the people. I can tell 
you that as our veterans have fought so hard for this country 
to keep this Union together, they are still keeping the Union 
together, because when we walk into the VA Committee, it is not 
about red states and blue states and partisan this and that. It 
is about our veterans. It is about our country. I can report 
back to you guys that that is, in fact, the case, and I can 
tell you that the results tell that same story.
    Twenty-eight bills have been passed, veteran-related bills, 
out of the United States House of Representatives. Eight of 
those have become law. We have worked together in a bipartisan 
way to enhance the educational opportunities with the Forever 
GI Bill, which is the new GI Bill; for example, taking away 
that arbitrary timeframe and saying you earned the GI Bill 
benefits, you have them for the rest of your life, you choose 
when you are going to make use of them.
    A recipient of the Purple Heart would have had to wait the 
36 months to avail themselves of the GI Bill. If you take a 
bullet for our country, you get the GI Bill. You don't wait in 
line. You don't wait for 36 months. That is the right thing to 
do, and those are the kinds of reforms we have been working on.
    The Veterans Accountability Act has been worked on now for 
several years, and that, I think, goes to the heart of many of 
the problems with the VA. It is just a broken system--not bad 
people, broken system. And that VA accountability is another 
sweeping reform that was passed in this Congress.
    Beto, Representative O'Rourke, the Ranking Member and I 
have worked on other initiatives together and introduced laws 
that will--they may not be as broad and sweeping and seemingly 
bold, but they add up to a real difference in our veterans' 
lives. Whether it is the recent bill that passed the House that 
we co-introduced to help provide better services for our 
disabled veterans with respect to home modifications, and rural 
veterans--we are in rural America--this is a great slice of 
rural America, very representative of rural America, not just 
the values but also the challenges. We have introduced a bill 
that I know will become law that will allow for our rural 
veterans to access the capital for home ownership.
    There are a number of them, guys, and I am telling you, it 
is working, not because you have a great representative in Beto 
O'Rourke out of El Paso and this great state, or me. It is 
because our veterans bring out the very best in all of us. So I 
just want to make note of that.
    Speaking of my Ranking Member, he is the Ranking Democrat 
Member on the Subcommittee. But I will tell you, he had to be 
my training wheels and has held my hand through the transition 
of my own civilian life to public service in the United States 
Congress, and he has just been a great friend. I cannot say 
enough about him. The best thing I can say about him is that he 
sincerely and deeply cares about our veterans, and he comes to 
the table every time with an openness and a willingness to work 
with me and with our other colleagues to solve the problems 
that face our veterans.
    So, Beto, I just want to recognize you and honor you in 
that way. You deserve it, and it has been a lot of fun, too, 
just to get to know you, and I do consider you my friend. 
Thanks for making the trip.
    Let's give it up, guys, for our Ranking Member.
    [Applause.]
    Mr. Arrington. Kristina Butts and Texas Tech and the Texas 
Tech officials who are here, and those who are behind the 
scenes with Christina making this happen, thank you very much. 
These things don't just happen, and I know they are a lot of 
work, and so I want to recognize you guys.
    I think I am going to skip through this. Today we will 
focus mainly on one of our most important missions, which is 
assuring our veterans get the highest quality of education and 
the support that they need as non-traditional students, and 
even unique challenges within the non-traditional student 
population.
    We have some best-in-class programs. I would like to think 
we have some best-in-class people that I would like to show off 
today and highlight, because when we say we love our veterans, 
I don't know that I have met anyone that wouldn't say the very 
same. The question is, what are we doing to love them?
    At Texas Tech, they are putting their money where their 
mouth is, at Angelo State, LCU, and other places in West Texas, 
and that is what makes me so proud, and we are going to dig 
into that today.
    I think I am going to save my speech. Now I am just going 
to cut it short because we need to jump in here.
    Let me, before we get into the panel discussion, ask Dr. 
Tim Perrin--he is here today representing Lubbock Christian 
University, and I know he is in my notes somewhere.
    Veterans of Faith--is that the name of the program?
    Dr. Perrin. Yes, that is right.
    Mr. Arrington. I know I have the name of the gentleman who 
is with you somewhere here.
    Dr. Perrin. Felix Longoria.
    Mr. Arrington. Felix Longoria. He is the President of that 
organization. We have an awesome higher education community, 
and it is not just public universities. It is two-year 
colleges, it is private schools.
    Anyway, tell us about this program, and thank you for being 
here today, Mr. President.
    Mr. Perrin. Well, thank you, Representative Arrington, and 
thank you, Members of the Subcommittee, for giving us the 
chance to share a brief word and for holding this hearing. We 
thank you for your service, for all you are doing, your 
leadership here in the United States. It is wonderful to 
spotlight higher education and enhanced educational 
opportunities for our veterans.
    At Lubbock Christian University, we support our veterans 
and seek to ensure their success in college and beyond. With 
fewer than 2,000 students, we are able to give personal 
attention to all of our students. That certainly includes our 
veterans. We offer support for our veterans in every aspect of 
their lives--academically, socially, spiritually, emotionally, 
socially, and in every regard.
    Counseling and tutoring services are available as needed to 
assist our veterans in making the adjustment to civilian life. 
Today, Representative Arrington, you have given us a chance to 
highlight our Veterans of Faith, a student group, and I am 
thrilled to have here with me Felix Longoria, one of our 
students, a math major at Lubbock Christian University who is 
the president of our Veterans of Faith organization, which 
serves and leads so beautifully within the LCU community, and I 
am really pleased to give him a chance to share a word about 
his experience at LCU and through the Veterans of Faith student 
organization.
    Felix Longoria. Good afternoon. Thanks, Representative 
Arrington, for the opportunity to speak on behalf of the 
veteran community of LCU. I also want to thank Dr. Perrin for 
his support of our organization.
    My name is Felix Longoria. I am a veteran of the United 
States Marine Corps, and I am also the president of the 
Veterans of Faith there at LCU.
    Attending Lubbock Christian University has been one of the 
greatest challenges of my life. As a veteran, you see a lot of 
things, but transitioning into that setting, it definitely 
poses some challenges. So on the same note, it has also been 
one of the great experiences of my life.
    It wasn't too long ago that I was working in a machine 
shop, a 9-to-5 job, manual labor. It is a trade that I had 
learned as a young man growing up in a farming community.
    As many veterans do, I reverted back to what I was familiar 
with because I found the transition to civilian life just a bit 
difficult. When my physical limitations overcame my ability to 
stand for an 8-hour work day, the Veterans Administration 
advised me that I would qualify for a program called vocational 
rehab, and it was through this program that I was able to 
attend LCU.
    I chose LCU due to its proximity to where I live. It is 
pretty close. In my faith, I feel that I landed exactly where 
the good Lord needed me to be. It took some time acclimating to 
college life, but the community at LCU made sure I had all the 
tools and things that I needed to be successful.
    After a time, I joined the Veterans of Faith. I found it to 
be an organization of like-minded individuals. We have a lot in 
common. Over time we have formed a bond, a brotherhood. It is 
something that we have been missing since our time in the 
military. Again, that is one of those challenges that you have 
coming from such a scripted organization to something that is 
not that. It makes things very difficult.
    To me, when I am away from my family, we attempt to foster 
a sense of belonging and brotherhood, not only to members but 
to all veterans on campus. In addition to creating a strong 
community for veterans at LCU, the VOF, as it is referred to, 
is also a service organization. We take advantage of 
opportunities to aid the veteran community in various ways 
throughout the year, and it is through these activities that we 
are able to give scholarships within our organization. A chance 
to serve together creates an even stronger bond for our group. 
Serving a cause greater than our own fosters a sense of 
community.
    So I do want to thank you, Representative Arrington, for 
the opportunity, on behalf of the veteran community at LCU and 
for your advocacy on behalf of veterans, for giving me a chance 
to share today.
    I do kind of want to go off script a little bit and speak 
about the vocational rehab program that I am currently going to 
school on now. Without that, I wouldn't be at LCU. It has 
changed my life. It has changed who I am.
    I know the VA gets a lot of bad press for certain things, 
but this is something that they have gotten right.
    Thank you.
    Mr. Arrington. Thank you, Felix, so much. That was 
heartfelt, and thanks for that personal testimony as to the 
success of the program. I know I beat up pretty hard on the VA, 
so every now and then it is nice to hear a positive story about 
what they are doing right, and I know they try.
    Dr. Perrin, thanks for your leadership at LCU and for 
loving on our veterans and making sure they have a great 
environment over there to succeed.
    Felix, God bless you, man.
    Dr. Perrin. Thank you.
    Mr. Longoria. Thank you.
    Mr. Arrington. You bet.
    Now I am going to ask my friend and Ranking Member to make 
any remarks and to take as much time as he would like.

           STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Mr. Chairman, thank you for organizing this. 
It is a huge honor to be here with you in Lubbock, which, of 
course, in El Paso we refer to as East Texas.
    [Laughter.]
    Mr. O'Rourke. Always when we are here, we are made to feel 
so welcome and so at home. While the people of Texas generally 
distinguish themselves by how friendly they are, I think the 
people here in Lubbock really take the cake. We have felt that 
in every interaction in every part of town and are just very 
grateful and very touched by how we have been received. So, we 
just want to begin by thanking the people of Lubbock.
    I want to thank Chancellor Duncan and Texas Tech. When I 
was first sworn into office in 2013 and served on the House 
Veterans' Affairs Committee, El Paso, Texas had the worst wait 
times to access mental health care services for veterans in the 
country. If there are 141 mental health care clinics or parts 
of the VA system, we were ranked 141st. We set out to change 
that and worked with Texas Tech Health Science Center and El 
Paso, with other public and private providers and turned that 
around, including with some terrific leadership from the VA, 
and we have gone from worst in the Nation to many months being 
right at the national average, and some months exceeding it, 
with the goal to clearly be the best in country. And I think 
with Texas Tech's help, President Richard Lane and the entire 
system based out of here in Lubbock, we have a chance to do 
that. So I am very, very grateful for what Texas Tech has 
provided.
    I want to congratulate Chairman Arrington on his leadership 
so far, everything that he has accomplished in not even a year 
on the Committee, including last week being able to bring to 
the Floor of the House of Representatives a bill that he lead 
on, that he wrote to ensure that veterans that are 
transitioning into civilian life have the adaptive housing 
necessary for them to be able to succeed, and I believe that 
bill passed 435 to zero, which is a rare feat on the Floor of 
the House, and I think is indicative of his leadership and, as 
he mentioned, pursuing it on a bipartisan basis, and very 
encouraging for the work before us.
    Just some brief comments, and then I am very eager to hear 
from the panel and to learn from what they have to share with 
us today.
    We clearly are not getting the job done in ensuring that we 
have a successful transition from service and Active duty to 
civilian life and being a veteran in this country. We need to 
look no further than the fact that we are losing 20 veterans a 
day, every day, in this country by their own hand, the majority 
of whom choose not to or are unable to access services at the 
VA, many of whom are unable to find purpose or function in 
their lives. I felt like Mr. Longoria's testimonial was so 
powerful in the function and purpose that you have been able to 
find. Thanks to those that you referenced.
    We have a role to ensure that that transition is better, 
more seamless, and more effective towards allowing that veteran 
to contribute to their full potential to their own success in 
their lives, but to the success of this country, to the 
communities in which they live, and to their families.
    Now, one of the things that Jodey and I have worked on 
together is ensuring improved mental health care access across 
the VA, and specifically for veterans who have what is known as 
an other-than-honorable discharge. These veterans previously 
have been precluded by law from being able to go to the VA to 
see a provider, including a mental health care provider, 
despite the fact that tens of thousands of these veterans who 
have a bad paper discharge have PTSD, post-traumatic stress 
disorder, traumatic brain injury, military sexual trauma 
connected to their service to their country. They were 
diagnosed with these conditions before they separated. And yet 
once they are in civilian life they are unable to go to the VA 
and get the care that they need, and their suicide rate is 
twice that of those veterans who have an honorable discharge. 
We are losing these veterans unnecessarily.
    We were able last week to also pass a bill that opens up 
mental health care to those veterans who have an other-than-
honorable discharge. That also passed 435 to zero. The Senate 
companion is set to pass as well. That will be on the 
President's desk, we hope, by the end of the year, opening up 
mental health care to more veterans who we need to serve in 
this country.
    I want to build on this bipartisan success that we have 
been able to be a small part of and ensure that we are fully 
able to integrate these returning veterans successfully back 
into civilian life. Very often, Jodey speaks with extraordinary 
pride about the success that Texas Tech and West Texas 
generally have had in doing that, our pride that we have for 
our servicemembers and our returning veterans, and our focus on 
ensuring that they are successful once they are back in their 
communities.
    So I am really eager to learn from you and what you have 
been able to do, what you can share with us, and how we then 
apply that to Federal legislation to ensure that the West Texas 
model is the path forward for more communities across the 
country.
    So I am very grateful, Chairman Arrington, for your 
organizing this hearing, to the panel for coming out, and to 
the staff, the majority and minority staff who have done all of 
the important underlying work to make sure that today is a 
success.
    With that, I yield back. Thank you.
    Mr. Arrington. I want to thank the Ranking Member.
    For just a few minutes of informal presentation before we 
get into the panel, I have asked Dr. Ted Mitchell to talk 
about, Mr. O'Rourke, this unique partnership between the Health 
Sciences Center and the VA to build a community-based 
outpatient clinic on the campus and just why that is important, 
what is unique about that, what is the value proposition to 
this community, to the veterans, and even to your own students.
    So could you just take a couple of minutes, a few minutes, 
and talk about that? Then we will jump right into the panel.
    Dr. Mitchell. Certainly, Mr. Chairman. This is something 
that impacts not only the Health Sciences Center in Lubbock but 
also greatly impacts the Health Sciences Center at El Paso.
    When you have a partnership that you can develop between an 
academic health center, like the Health Sciences Center here, 
with a veterans' clinic or a veterans' hospital, there are 
unique opportunities on both sides with that. From the 
veterans' perspective it gives them an opportunity to be in a 
vibrant academic health setting where you have access not only 
to primary care folks but to multitudes of people in specialty 
areas, so the care they get is far more comprehensive when you 
do that.
    On the other side, for the students and for the residents 
that are participating from the Health Sciences Center over on 
the VA side, it gives them an opportunity to have two things. 
Number one, a very rich patient base. In the military of today, 
you have the older folks that have fought in previous wars, and 
their injuries and their issues are related to a lot of older 
citizens. You also have a very large young population of folks, 
both men and women, who have multitudes of problems that you 
see in young people. So it is a very rich environment.
    In addition to that, both of you have referenced the mental 
health area, and that is something that from the provider side 
becomes extraordinarily helpful in their own training and how 
to deal with some of these issues that they otherwise may not 
see.
    From the patient side, from the veteran side, it is also 
giving them an opportunity again to have access not just to 
generalists but also to psychiatrists and people that really 
focus on PTSD, on brain trauma, on other things that are so 
prevalent in that population. So it is a perfect marriage when 
you can have the veterans in a facility co-located with an 
academic health center.
    For us, both here and in El Paso, this is an 
extraordinarily exciting proposition for us.
    Mr. Arrington. That is great.
    If you don't have any questions--thank you, Dr. Mitchell.
    Obviously, Dr. Mitchell is part of the panel today.
    Mr. Carl Chapman is also going to join us, a former Marine 
and veteran liaison for the TTU Health Sciences Center School 
of Nursing. Glad that you are here.
    Colonel Lou Ortiz, a good friend, retired Air Force, and 
the Director of Texas Tech University's Military and Veterans 
Program, the MVP program. Glad that you are here.
    Ms. Nicole Meyer, former Air Force and currently a student 
at Angelo State University pursuing a Bachelor of Science 
degree in Nursing. We welcome you.
    Mr. Kai Iuta, former Army and currently a student here at 
Texas Tech, pursuing a Bachelor of Arts degree in Psychology. 
We welcome you. Thank you for coming and participating.
    And finally, my friend Colonel Dave Lewis, the fighter 
pilot, retired Air Force, and the Director of VetStar, and a 
guy that taught me a lot about the importance of the community 
organizations partnership, the guys that are on the front 
lines. So I am excited to hear from you.
    Thanks for being here, folks.
    Dr. Mitchell, let's start with you.
    You get 5 minutes apiece. You see the yellow light. Where 
is the yellow light? You see the yellow light. When it comes 
on, that means it is time to wrap up. It is going to be very 
difficult for President Mitchell, but I just hope he can set 
the right tone for the rest of the panelists.
    So, with that, Dr. Mitchell, we recognize you for 5 
minutes.

                STATEMENT OF TEDD MITCHELL, M.D.

    Dr. Mitchell. Perfect. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Ranking Member O'Rourke, and 
distinguished Members of the Subcommittee on Economic 
Opportunity of the House Committee on Veterans' Affairs, my 
name is Dr. Tedd Mitchell. I am the President of Texas Tech 
University Health Sciences Center, one of four component 
institutions within the Texas Tech University System. It is an 
honor to be a witness before your Subcommittee on the very 
important topic of best practices in veterans' education and 
transition to civilian life.
    We pride ourselves in the Health Sciences Center on our 
commitment to veterans and their families and its recognition 
of their service to our country. Last week, we held our annual 
Veterans Day ceremony honoring the men and women at the Health 
Sciences Center who have served our country. As a member of the 
Council of College and Military Educators, the Health Sciences 
Center strives to ensure that veterans have a successful 
transition into the college setting and, once there, receive 
the support that they need to be successful.
    For the fall semester of 2017, our university has student 
veterans in all five of our schools: Nursing, Health 
Professions, Medicine, Pharmacy, and the Graduate School of 
Biomedical Sciences. These students are located throughout West 
Texas on all six of our campuses: Abilene, Amarillo, Dallas, 
Lubbock, and the Permian Basin. The Texas Tech University 
Health Sciences Center at El Paso also has a total of 21 
veterans in their enrolled programs. These students are in the 
Paul L. Foster School of Medicine as well as the Hunt School of 
Nursing.
    This oversight hearing is entitled ``The Best Practices in 
Veterans' Education and Transition to Civilian Life,'' both of 
which we take very seriously. We try to take the stress off our 
veterans by ensuring all the necessary documents are submitted 
to the VA to certify student enrollments. In fact, Sarah Henley 
serves as our Veteran and Military Advisor and is a veteran 
herself. Our Veterans and Military Advising Office and Sarah's 
dedication have produced phenomenal results for veterans 
interested in enrolling in the Health Sciences Center but who 
may find the proposition to be a little bit daunting.
    This office continues to be the primary point of contact 
and resource for veterans after they have enrolled and have 
begun their degree program. One of our most innovative programs 
is the accelerated Veteran to Bachelor of Science in Nursing, 
VBSN, track. This is a nursing degree completed in 12 months 
specifically designed for veterans with prior military medical 
training. The program allows veterans to receive competency-
based college credit and to earn their BSN in far less time and 
with far less cost.
    This program is unique in that our faculty developed the 
curriculum with the folks at the Medical Education and Training 
Campus, METC, at Fort Sam Houston at the Joint Services Base in 
San Antonio, Texas. Our faculty collaborated with METC 
personnel to review their curriculum for medics. The medic 
curriculum was examined to determine which courses offered key 
elements similar to our nursing courses. The program then 
created a competency-based examination to award college credits 
by recognizing prior learning. Veterans have the opportunity to 
be given college credit for several of the courses.
    It is important to understand that the State of Texas has 
also put skin in this game. Back in 2015, the Texas Workforce 
Commission College Credit for Heroes program gave us $200,000 
in a grant to help develop this program. We also receive 
support from the U.S. Department of Health and Human Services 
through HRSA. This is an important part of making this program 
successful.
    This program has been phenomenal. Our pilot group of seven 
students graduated in December of 2016, and they all passed the 
nursing licensing examination on their first test. The second 
group coming through has a total of 12 students. The group for 
2018 will have 22. The group for the following year will have 
45. Our plan is to increase our numbers annually by 50 percent. 
We offer this program in seven locations: Lubbock, Amarillo, 
Odessa, Abilene, Dallas, Austin, and San Antonio.
    As a result of this success--and this is really important. 
As a result of the success of this program, our School of 
Pharmacy and our School of Health Professions are looking at 
similar programs to expand opportunities for veterans in those 
areas.
    So with that, I would say that there are only a couple of 
things that we would recommend that you consider. First is to 
continue the funding through HRSA for the program. The next is 
to look at the military housing allowance to make sure that as 
we grow more into distance education, that we give the students 
housing allowances for where they live, not for where the 
university is located, and you have already done that a great 
bit with the last expansion of the GI Bill. And then finally is 
to look at the VA 85/15 rule. That rule was put in place to 
ensure that the veterans are receiving quality education by 
making sure 15 percent of folks that are civilians are in there 
with them. We would ask that if you have entities and agencies 
like our university that have accreditation through the 
Department of Education, that that be considered enough.
    Thank you very much.

    [The prepared statement of Dr. Mitchell appears in the 
Appendix]

    Mr. Arrington. Excellent testimony. Thank you, Dr. 
Mitchell.
    And now we will recognize Mr. Chapman for 5 minutes.

                STATEMENT OF AARON KYLE CHAPMAN

    Mr. Chapman. Good afternoon, Chairman Arrington and Ranking 
Member O'Rourke. Thank you for inviting me to appear before 
your Subcommittee.
    I will just give you a brief story about my journey as a 
student at Texas Tech and how that looks like today.
    I am Kyle Chapman, and I served in the United States Marine 
Corps. I served in the 3rd Battalion 5th Marines. I served with 
them in the initial invasion of Iraq back in 2003, and then I 
served with the 2nd Battalion 4th Marines in Ramadi, Iraq.
    Once I left Ramadi, within a month's timeframe, I was a 
civilian. I then came back to school in 2005 at Tech, and it 
was very difficult to even find the appropriate office or the 
right person to talk to, to even get my benefits up and 
started. At that time specifically as well, I started a very 
messy period in my life and started coping with varying 
unhealthy ways, pretty much became a full-blown alcoholic out 
of things that I was struggling with from my time in the 
service.
    That went on for four years. Then in 2009, through 
different sets of interventions, I went to the Amarillo VA 
rehab program with other veterans who were dealing with much of 
the same things that I was.
    Once I returned I put a plan in place to get back to 
school, and I was able to do that in 2011. In 2013, I 
transferred into Texas Tech. That was from 2005 to 2013 when I 
walked into the MVP office, completely night and day. Bernice 
Fled, who was there at the time, set me down and walked me 
through how to fill out my Hazelwood documentation 
appropriately, my VA documentation. That was very helpful.
    Then a year into the process I had a chance encounter with 
somebody who was working in the MVP office at the time, and I 
was about to run out of my Montgomery GI Bill, and he had the 
insight to ask me, well, do you have a disability? Yes, sir, I 
do. What's your percentage? I told him, and he said, well, you 
are eligible for rehab.
    To this day I am pretty sure I don't know that I ever would 
have known that that benefit was there for me to take advantage 
of had it not been for the Military and Veterans Program office 
and the knowledge they have.
    I graduated in 2015 with the Human Development and Family 
Studies degree, and I minored in Addictive Disorders and 
Recovery Studies with the specific intent to help military 
veterans and their families with resources, PTSD, and substance 
abuse. Today I serve as the School of Nursing Veteran Liaison 
at the Health Sciences Center for the veterans program, and it 
really is an invaluable program.
    As mentioned by President Mitchell, those courses that we 
allow them to cap out of acknowledges the skill sets and the 
knowledge that they have already gained while in service, and 
it is proving more than effective.
    My piece is the very first phone call, email, whatever the 
case may be, and I then become their one-stop shop. I will walk 
them up through the process. That may be two years that may be 
a week. It will start with an evaluation, then the application 
process, and then I will follow-up with anything that needs to 
be taken care of while they are in our program, any issues or 
concerns that pop up. I will reinforce the training.
    And just to put it into perspective, San Antonio, it is 
$1,811 currently. We have students there at that site. Here it 
is $1,097. That is a $714-a-month difference in a place where 
the cost of living is much higher, and we are asking them to 
take that cut.
    To basically wrap this up, I really believe through my own 
journey that there is no better way for us to honor our 
military and veterans than through their career and educational 
endeavors. So I would like to leave you with a quote from one 
of our current students whose unit was recently activated for 
Hurricane Harvey relief. And I quote, ``The situation in the 
military are uncontrolled field settings. That training has 
helped me stay in the correct mindset while I work in more 
controlled environments. The best part of TTUHSC is that they 
have acknowledged all of my training in the Army. A lot of 
places say they are military friendly, but TTUHSC really backs 
it up. They stand by their military students. When they say it, 
they mean it.''
    Thank you.

    [The prepared statement of Mr. Chapman appears in the 
Appendix]

    Mr. Arrington. Well said, Kyle. Thank you for your personal 
story. And congratulations for the success that you are having. 
Look forward to drilling down with you.
    And now I recognize Mr. Ortiz for 5 minutes.

                 STATEMENT OF COLONEL LOU ORTIZ

    Colonel Ortiz. Chairman Arrington, Ranking Member O'Rourke, 
thank you so much for coming to Texas Tech today.
    After high school, I grew up locally here in the West Texas 
region. I decided I wanted to not be a cotton farmer, so I 
joined the Air Force. I had the privilege of serving the next 
30 years affiliated with the Air Force, retired in 2011. I am 
proud to be here at Texas Tech because I get to work with the 
veteran community here both on campus and off campus, and that 
is something that is very special to me, a very special group 
of folks.
    I appreciate the opportunity here this afternoon to 
describe our Texas Tech programs that directly support the 
education of our military veteran students who have served and 
sacrificed for our Nation.
    Texas Tech Military and Veterans Programs was created in 
2010 as a department solely dedicated to helping veterans and 
their families succeed. We currently serve more than 2,200 
veterans and family member students on the Texas Tech 
University main campus and have developed a veteran support 
structure and culture that serves their needs.
    Behind me are two of our staff Members. We have five full-
time staff: Debbie Crosby, who has been with us since the 
inception of the program and helped us stand it up; Eric 
Washington, one of our program coordinators; Kyle mentioned 
Bernice Flet. In addition to that we have 10 VA work studies, 
VA-funded students that work for us. We couldn't do our job 
without them.
    We serve undergraduate, graduate, and law students on our 
main campus and satellite locations across the state including 
Waco, Dallas, Junction, Fredericksburg, and Marble Falls.
    Our core mission, of course, is to assist veterans with the 
benefits that they have earned by virtue of the service, both 
Federal and state. We administer Federal benefits for veterans 
and Reserve component members most commonly post-9/11 GI Bill. 
Beyond core benefits, our Military Veterans Program serves as 
integration of resource office for all military veteran-related 
organizations, activities, events on the main campus. We work 
hand in hand with the Student Veterans of America chapter, 
Veterans Association of Texas Tech, Tech Law Military 
Association, Faculty and Staff Veterans Association, Army and 
Air Force ROTC, and the Military Veterans National Alumni 
chapter. We also partner and coordinate with key veteran 
support organizations and resources throughout the local 
community.
    As a preface to outlining our veteran support system, I 
must tell you that the vast majority of our military and 
veteran students are emotionally mature, goal oriented, mission 
driven, and self-sufficient role models on campus. Academically 
they perform equal to or better than our general student 
population.
    However, based on their unique military experiences that 
may include combat, some veterans do experience social, 
administrative, financial, and physical and mental health 
challenges. Military Veterans Programs provide a support 
environment and culture by instituting programs at three key 
stages.
    First of all, we want to help veterans in their transition 
to campus. We have programs for that. We also want to provide a 
support system while they are on campus to ensure they earn 
their degree, and we want to help them in their job search and 
employment pursuits as they approach graduation.
    In our transition from military to academic life, our goal 
is creating a welcoming environment here at Texas Tech for the 
veterans and their families. We have a program entitled Vet 
Tech Boot Camp. Our two-day Boot Camp is designed to help 
veterans transition to college life by providing best practices 
in study skills, time management, writing, and money 
management. A special guest to the training program is the 
Brain Performance Institute. This program is a great way for 
veterans to socialize. We start this program two days before 
the actual semester starts so they get to transition through 
this program to the campus.
    As non-traditional students, that peer-to-peer interaction 
with other veterans is vital in establishing the social 
connections in their new academic setting.
    Our support structure on campus, our number-one goal is 
degree completion for veterans that attend Texas Tech. As a 
starting point for campus support, there are over 300 faculty 
and staff Members who are veterans at Texas Tech. These faculty 
members serve as role models, advisors and mentors for current 
student veterans.
    We have another key component, which is our Green Zone 
training program. It is a comprehensive program that 
incorporates seven distinct training modules. Our unique multi-
module approach incorporates training by subject-matter experts 
in key support areas on campus, allowing our faculty and staff 
to gain a more comprehensive understanding of veteran 
challenges, how to recognize them, and where to refer veterans 
for assistance. Over 700 faculty and staff have attended this 
training.
    We also have over 35 volunteer veteran liaisons within the 
colleges and staff support functions that are dedicated to 
veteran success. They provide frontline support for veterans 
who have questions or need assistance in their respective 
colleges. Liaisons meet with us in our office quarterly to 
share information or report specific veteran-related 
information.
    The final stage is making sure that once our veterans 
graduate or are approaching graduation, they have career search 
assistance and employment assistance. Veterans earning their 
degrees, career preparation begins before they complete that. 
The University Career Center has developed a veterans' career 
program for veterans to receive the assistance they need to be 
successful in preparing for their future careers. In spring 
2017, Military Veterans Program partnered with the University 
Center to develop a pilot Camo to Corporate program. It is 
really based on the Boots to Suits concept, but much more 
expansive in that this program is for graduating veteran 
seniors to prepare them. The students sign an agreement to 
participate in evening sessions, including a strong interest 
inventory, resume, cover letter writing, networking, 
interviewing, proper etiquette and dress for a professional 
setting. Veterans who complete all the sessions acquire their 
valuable job search skills, employer connections, and a 
tailored business suit at the end of the process.
    In May 2006 we stood up our Military and Veterans National 
Alumni Chapter. We recognize the value of a broad network of 
military veteran alumni across the state and Nation. One of our 
primary goals of the chapter is to connect students and 
graduating seniors with alumni who are leaders in business, 
corporations, government, and the military. We work to connect 
those employers with our students for internships, mentoring, 
and employment opportunities. The career center program does a 
great job of doing that.
    We are very proud of our Texas Tech veterans and do our 
best to recognize them at every opportunity. One way we do this 
is our unique camouflage stole. You've seen these, yes. So this 
is the way we recognize them. We do a special ceremony two days 
before graduation, unique marker at graduation. Leadership will 
make a special effort to recognize our veterans, just one 
simple way that we recognize veterans at Texas Tech.

    [The prepared statement of Mr. Colonel Ortiz appears in the 
Appendix]

    Mr. Arrington. Lou, I am going to tap you out right there.
    Colonel Ortiz. Yes.
    Mr. Arrington. I made a wager with Mr. O'Rourke that it 
would be Tedd Mitchell that would go over by at least 2 
minutes, and I said there is no way Lou Ortiz--he is very 
disciplined, he is former military.
    No, listen, this is awesome. Just in the interest of time, 
we are going to come back to some questions.
    Colonel Ortiz. Absolutely.
    Mr. Arrington. If he would have had the gavel, he would 
have been just banging on it.
    [Laughter.]
    Mr. Arrington. But I think that is rude to do to my friends 
back here at home.
    [Laughter.]
    Mr. Arrington. Thank you for your testimony.
    Colonel Ortiz. Thank you for the opportunity.
    Mr. Arrington. You bet.
    Now we will recognize Nicole Meyer, Ms. Meyer, for 5 
minutes.

                   STATEMENT OF NICOLE MEYER

    Ms. Meyer. Thank you, Mr. O'Rourke, Mr. Arrington, for this 
chance to speak before you today.
    I enlisted in the Air Force in 2010 after graduating from 
high school. I grew up in a very small town in Washington, and 
there were not very many opportunities there. If I was to go to 
college, it would have put me in a lot of debt to start my 
life, and that wasn't something that I wanted.
    I was stationed for six years in New Mexico and spent a 
year of that in Afghanistan. I began my separation process from 
the Air Force a year prior to my separation date. I began 
researching schools and trying to learn how the post-9/11 GI 
Bill worked. I attended the Transition Assistance Program, TAP, 
but very little of the week-long class helped me with the 
transition from Active duty to civilian.
    The majority of the class focused on searching for jobs and 
building a resume. But because I was headed to college, very 
little of it applied to me. TAP went very briefly over the 
process of filing a claim but mainly focused on going through 
an individual on base that would help you go over everything in 
your medical record to submit your claim. I was unable to use 
this person due to time constraints and had to figure out how 
to file a claim on my own through e-Benefits.
    The class never went over distance organizations such as 
Disabled American Veterans or Veterans of Foreign Wars, having 
veteran service officers that could assist with filing a claim.
    Dealing with the Veterans Affairs medical system has been a 
long, convoluted process that has caused me a lot of stress 
while in school, and I know many other veterans who had this 
issue as well. This began with my initial claim for disability 
during which I was denied for my chronic back problems that had 
been ongoing for three years at the time.
    The doctor I was sent to for my compensation pension exam 
is well-known by local veterans to recommend that veterans did 
not incur their injuries while in service. The decision I was 
handed by the VA stated that there was no evidence of a 
disability for my back. I have since been diagnosed with having 
scoliosis that I developed while on Active duty.
    My appeal for disability concerning my back has been 
ongoing for a year. As a woman, it can be very difficult to 
receive medical treatment for women's health issues at the 
Veterans Affairs. Anything other than very basic processes, 
such as prescribing medication, is referred out to the Veterans 
Choice Program. Unfortunately, funding is tight and many 
providers no longer accept the Choice Program.
    As of 2015, there are over 2 million women veterans in the 
United States. I do not understand why receiving treatment for 
women's health issues is such an arduous process. It took well 
over two months for me to finally see a woman's health doctor 
to get treatment for a reoccurring health issue.
    When I first contacted the Veterans Educational 
Transitional Services office at Angelo State University, they 
were extremely helpful in explaining the process of applying 
for my education benefits. They offered much more help than the 
TAP program or the education office at Holliman Air Force Base. 
Most of the time the education office at Holliman either never 
answered the phone or were too busy to assist with questions. 
When I finally was able to get a hold of them, the education 
office would give me very brief and general answers on 
education benefits available.
    The vets' office at Angelo State University is the first 
organization I have encountered that actually bothered to 
answer my questions. The only time I had any issues with my 
benefits was when the VA was late on my basic allowance for 
housing for the first month. This was, however, due to an 
oversight on my own part, not realizing I needed to inform the 
VA that I was no longer Active duty.
    I want to say thank you for taking the time to listen to me 
today. I hope that today can result in improvements to the 
current process and that more veterans are able to get the help 
that they need.

    [The prepared statement of Ms. Meyer appears in the 
Appendix]

    Mr. Arrington. Thank you, Nicole.
    Mr. Iuta, we will recognize you for 5 minutes.

                 STATEMENT OF IKAIKA (KAI) IUTA

    Mr. Iuta. Okay. Thank you. Thank you, Mr. Chairman 
Arrington and Ranking Member O'Rourke. First of all, my name is 
Kai, and as you can tell by my name, I am not from these parts. 
So you are probably wondering how the heck did I get here. 
Well, it all started back when I failed my freshman year in 
college. School was not working out for me because I didn't 
know what to do with my life. So my dad, who is an Army vet, he 
encouraged me to enlist in the United States Army, which I did.
    So I enlisted in the Army for four years. During that time, 
I had one deployment to Afghanistan, and I was assigned to the 
Global Response Force in 2014, which is a rapid deploying unit 
just in case stuff went down in the world.
    After getting out, the process for the Army, it was good 
but it wasn't great. Mr. Longoria, you mentioned that there was 
a high rise of suicides of members when they get out, and I 
think part of that reason, my theory, is because the military 
didn't follow through with the transition process, because I 
think the term ``transition,'' it is very kind of iffy, you 
know? I think that word ``transition'' as part of getting out 
needs to be redefined.
    So when I got out of the military, I was going to a small 
community college at the time in Washington State. At that time 
I was suffering from an identity crisis because I had done all 
these years of service and I identified myself as a soldier, 
but then when I enrolled at the school I was just a nobody. I 
was just another leaf in the lawn, and there was no veteran 
support system. All I did was just go to school and go back 
home and go to work, and I was just leaving an identity-less 
life.
    But luckily I was still able to graduate with my associate 
degree from there, and from there I had to apply to a bigger 
university. So I did some research, and I was doing research 
for the GI Bill, and during that time the GI Bill was limited. 
There were some special circumstances for the GI Bill. For 
example, the GI Bill only gave in-state tuition waivers for 
certain states, and Texas was one of them, thankfully. So I 
decided to apply to schools in Texas.
    I looked up also on the Web site for military-friendly 
schools. Texas Tech was among the top 10. So I applied, and I 
was able to get accepted and enrolled into Texas Tech. In my 
experience, I come from an island, and coming to West Texas is 
just like, oh, my goodness, what the heck is this? But, you 
know, when I came into this office, into the Military Veterans 
Office, they were very kind, very nice. They had a support 
system for veterans, and I think that is what I needed because 
as soon as I was talking to them they signed me up for the 
student organization called the VATT, which is the Veterans at 
Texas Tech student organization, and I was able to connect with 
other veterans who are similarly in my situation and who had 
been through what I had been through. I think that was what 
made me feel more welcome at Texas Tech than I was at the 
community college.
    Also, the other thing that the Military Veterans Program 
provided was the Tech Vet Boot Camp, which is basically a 
veteran orientation to all the resources available at Texas 
Tech for veterans, and that also helped a lot for my education 
here at Texas Tech.
    I think the most important thing to help servicemembers who 
want to come back to school is recognizing who they are and 
reaching out to them, and just how it takes time for the 
military to turn a civilian into a soldier, it takes time for a 
soldier to become a civilian again. Providing a resource such 
as the Military Veterans Program at Texas Tech allows veterans 
to get connected and help them with their educational needs, 
because sitting in a class with kids who are 10 years younger 
than you, it is pretty awkward. However, by providing a support 
system that recognizes veterans and their distinct situation 
will make them feel a part of something again.
    Thank you.

    [The prepared statement of Mr. Iuta appears in the 
Appendix]

    Mr. Arrington. Very, very good. Thank you so much.
    And we will cap it off in terms of our presentations with 
Colonel Lewis, who was the founder and inaugural director of 
the MVP at Tech and now leads the VetStar Program in the 
community.
    Colonel, we will recognize you for 5 minutes.

              STATEMENT OF COLONEL DAVID J. LEWIS

    Colonel Lewis. Thank you, Chairman Arrington, Ranking 
Member O'Rourke, for the opportunity to testify today.
    VetStar was created to assist veterans by connecting them 
to the resources to make them successful in the next stage of 
their lives. Over the years, we have narrowed our direct 
service focus to what we call stalled transition; that is, 
assisting those veterans who are struggling in their transition 
from military to civilian life. Our focus is filling in the 
gaps where the VA is unable to do so.
    VetStar has four primary service lines: peer-to-peer 
services; emergency financial assistance; homeless services; 
and mental health to veterans and family members primarily 
targeted at justice-involved veterans. Because of my experience 
delivering services to veterans who transition, I created the 
model we use extensively at VetStar known as FASTRR. FASTRR 
stands for Find Assist Stabilize Treat Reassess and 
Reintegrate. I want to focus on just two key aspects of that 
model today, find and reintegrate.
    Veterans that struggle in their transition issues tend to 
isolate due to a variety of reasons, including trust and stigma 
issues. But almost all of them have someone in a trusted 
relationship--a spouse, a parent, a close friend, or someone 
that I consider to be eyes and ears in the community. Many 
times that trusted relationship knows the VA might be able to 
help, but they are generally unaware of other community-based 
resources. Essentially, that isolated veteran must be found. 
Unfortunately, one of the more common places to find them is in 
the local jails or in an emergency room.
    The most critical component of our model after find is 
reintegrate, a last step. Our goal is to change the environment 
and alter the veteran's perception of where they belong in our 
community. We use multiple peer-to-peer programs such as 
VetLife and Team Red White and Blue to give the veteran a 
chance to be with other veterans. Proper reintegration can 
resolve many of the issues faced by the veteran, especially 
when delivered in a peer-based setting.
    One technique we use is a program called Task Force 
Lubbock, bringing veterans together to do community service 
projects. The outcome is less about the service project itself 
but rather focused on bringing veterans together in formal 
group therapy. Bluntly stated, our military was trained to 
break things and kill people. Using those skills to create and 
repair is very therapeutic.
    The majority of our veterans transition from military to 
civilian life with few or no issues. They have earned the right 
to be successful in their transition, especially as they pursue 
their educational opportunities. Roughly 19 out of 20 veterans 
are successful with few or no issues. Veterans make superb 
students and employees despite stereotypes that are placed upon 
them.
    A successful academic program consists of many parts, but 
the most important task in my mind is retaining the veterans in 
our academic programs. If that veteran is experiencing stalled 
transition in community partnerships, then organizations such 
as ours are absolutely essential. Traditional university 
programs such as student counseling services are typically 
quite good, but they may lack the cultural competency and 
timeliness to effectively address issues such as TBI and MST, 
PTSD or moral injury.
    Veterans experiencing stalled transition may not have 
symptoms until several months after they separate. Our close 
working relationship with the MVP office allows for near 
seamless awareness and coordination to address those challenges 
and provide interventions, as required, to prevent them from 
leaving the university. The process in place today is 
relatively effective, but it is reactive, relying on a lot of 
agencies to get the veterans to our services. As a result, far 
too many fall through the cracks and wind up in some portion of 
what I call the death spiral.
    My recommendation to the Committee on improving both 
educational outcomes and community success outcomes fall into 
four general categories.
    First, community transition, what we call Boots to Roots. 
DoD does a remarkable and unrivaled job of training us to go to 
war, as you have already heard. Training us to come home again 
is marginal at best. The skill set that keeps you alive in 
combat is not a good skill set when you return. Veterans facing 
stalled transition find themselves on a new battlefield.
    Boots to Roots has three main components. First, an 
awareness of who can provide those services in the community 
and the associated mental health and other resources. Second, a 
process to assist us in detuning or desensitizing the limbic 
training that many of our warriors go through in their initial 
military training. And finally, for those intending to pursue 
their education, an eye exam to identify and correct any TBI-
related vision issues that might preclude success in the 
classroom.
    My second recommendation is expanding communities of 
courage, and I consider Lubbock to be one of those. The 
community must invest in a returning warrior. Many communities 
are unprepared to comprehend and manage the challenges of a 
returning warrior force, especially when it comes to the 
challenging issues we have talked about.
    Third are the peer support programs I have already 
identified.
    And finally, as you noted, Mr. Chairman, rural challenges. 
DoD perfected recruiting in rural areas. We have not perfected 
delivering services to the rural veterans once they return to 
those communities.
    In conclusion, our veterans have earned the very best 
possible educational opportunities we can provide. A smooth 
transition from military service to the civilian world is 
essential for our veterans to take full advantage of the 
opportunities provided through our country's commitment to our 
forces. We can overcome transitions that have stalled. My 
experience has taught me that communities must be engaged in 
this transition. The VA cannot do it alone.
    We are not victims. We are not broken. But occasionally we 
still need a hand up to get us fully transitioned into the 
civilian world.
    Thank you for this opportunity.

    [The prepared statement of Mr. Colonel Lewis appears in the 
Appendix]

    Mr. Arrington. Thank you, Colonel Lewis.
    You guys did not disappoint. I am inspired just listening 
to you.
    I am going to defer to my Ranking Member and give him as 
much time as he may need, and we will just have more of an 
informal exchange of questions and dialogue with you all.
    Mr. Ranking Member, the floor is yours.
    Mr. O'Rourke. As you said, this was an amazing panel, 
wonderful testimony, very helpful towards our goal of improving 
transition, integration, and making the most out of those 
veterans who come back to our community.
    I love what you just said, Colonel, about not seeing 
veterans as broken or a problem or victims, as is so often the 
mindset that otherwise well-intentioned people approach this 
issue with, but instead seeing them as this extraordinary 
resource and opportunity given their training, their 
experience, their skill set, to be able to apply that to the 
needs of a community, the unmet business opportunity, that they 
can become the entrepreneur that Lubbock is missing in this one 
area. They can train at Texas Tech to fill some of the gaps 
left in this community. Whatever it is, connecting them with 
that purpose and that function is so critical.
    Chairman Arrington, I don't know if you remember this 
hearing. We had a great hearing on the Hill this year, I think 
primarily about post-traumatic stress disorder, and also 
reintegration. One of the panelists was Sebastian Junger, who 
wrote a book called Tribe, which many of you may be familiar 
with. This is a theme that many of you have brought up. Mr. 
Iuta, you said this, I think, more eloquently than I am going 
to be able to say this.
    He said that you, as a member of a military unit, go from 
being as essential as you can possibly be as a human being--
what you do or what you fail to do will determine your fate and 
the fate of your comrades in that unit--to sometimes a civilian 
life where that purpose and that essence of what it means to be 
alive and to be human is missing.
    I heard you, Mr. Iuta, talk about this identity crisis that 
you had when you came back and the search for purpose. That was 
your word. And it really hit home from what I have heard from 
so many returning veterans and those who are trying to figure 
out how to make the most of these extraordinary Americans who 
have already so proven themselves. And we in each community 
should be fighting over getting them to come to our city so 
that they can contribute to our success.
    Again, the Chairman has reminded the Full Committee of what 
an exceptional job Texas Tech does. Dr. Mitchell, you made a 
wonderful case for how that happens. And, Mr. Chapman, even 
your experience of first coming here--did you say in '05?
    Mr. Chapman. Yes, sir.
    Mr. O'Rourke. And there was not a TAP program at the time, 
a transition assistance program for separating servicemembers. 
There was something else that preceded it. There is a TAP 
program now which was still not sufficient for your purposes as 
you described them. I think most servicemembers, as they talk 
about TAP, it is like that PE credit that I had to satisfy 
before I could graduate from college. It is something that you 
have to do, get rid of, get out of the way so you can get 
moving on with your life. It is not really a comprehensive 
transition into civilian life, connecting you with that 
education or that job or that thing that you are going to do 
that is going to allow you to excel and live to your full 
potential.
    So you were highlighting a challenge that Chairman 
Arrington and I on this Committee are trying to meet, and that 
is how do we make the TAP program more successful. Do we expand 
it? Do we measure it more effectively? Do we talk to you after 
you have been through TAP, and not just check a box, are you 
satisfied or are you unsatisfied, but sit down and talk with 
you and share what you just shared with us right now? I think 
all that would be helpful.
    But I just want to begin by saying the approach with which 
you have brought your testimony today is the right one and so 
helpful, each one of you.
    Dr. Mitchell, I do have one specific question. You hit upon 
something that makes so much obvious sense to everyone in 
America, that you have these servicemembers who have been 
driving trucks on some of the toughest roads in Afghanistan and 
then have to come back and try to get a commercial driver's 
license and spend their GI Bill money on education, or you have 
medics who have been performing extraordinary life-saving work 
on the battlefield and have to come back and prove themselves 
again through an academic setting. And you are talking about 
how Tech is trying to shorten the time period that someone has 
to spend proving their credentials and getting back into 
function and purpose in their lives.
    Do you have any metrics or numbers that you could share 
with us about what that has saved in what a returning veteran 
would otherwise have to spend out of their GI Bill earned 
benefit or what they have saved in time if you did not have 
this program in place?
    Dr. Mitchell. Sure. A Bachelor of Science degree in Nursing 
is a four-year degree. What we offer is a 12-month degree.
    Mr. O'Rourke. So right there you have saved three years.
    Dr. Mitchell. Three years. These are folks that come out, 
and the way this has worked, you work with the folks at METC. 
You look at the curriculum that they use for medics, and you 
overlay the two curricula to look to see all the similarities, 
because there are a lot. And by doing that, then you can say, 
okay, this will count, this will count, this will count. We can 
work this thing in a way that you can wind up receiving several 
courses. You can get out of those courses straight off.
    But just from the perspective of pure time, this is a 12-
month program, whereas a BSN is a four-year degree.
    Mr. O'Rourke. I am going to turn it back over to the 
Chairman. Just very quickly from Mr. Chapman, Ms. Meyer, and 
Mr. Iuta, could you each talk about what you would like to see 
for transitioning servicemembers right now in an improved 
Transition Assistance Program, or TAP program? Again, for a lot 
of transitioning servicemembers that we talk to, it is checking 
a box. For their commanders it is very often checking a box. 
Many of the commanders, we are told, petition for the members 
of their unit to be able to take an online course because they 
need to get this sucker done and get that servicemember back in 
the field and functioning in their unit. And I can understand 
that impulse, but it is short-changing the ability to 
successfully transition.
    So give us some advice as we try to either administratively 
work with the Department of Defense to do a better job, if 
perhaps we need to rewrite legislation to ensure that they are 
doing a better job. What should we be looking for? If you could 
each take maybe a minute to do that, and then I can hand it 
back over to the Chairman.
    Mr. Chapman. Yes, sir. As you mentioned, when I got out, I 
showed up in a classroom I believe for four or five days. A ton 
of information was thrown at me. Again, this was within a 
month's time from me exiting a combat zone. There was no time 
to even process mentally getting out.
    So I have always been an advocate for--they spend a ton of 
time building you up to what is necessary, in my case to be a 
Marine. It is necessary. Now, I think the same thing should be 
said for the digress back into civilian life, and I think there 
needs to be an intentional timeframe where they can start 
making that transition.
    Mr. O'Rourke. If you had to just ballpark it, what would 
that timeframe be? More than a month? Less than six months?
    Mr. Chapman. To be honest, sir, I think it is hard to put a 
timeframe on it, because if you are looking at somebody in my 
situation, a month removed from combat, I would probably need 
six months to just come down; whereas somebody who hasn't, two 
months may do the trick where there is an intentionality of 
what is it going to look like as you move back into the job 
market or moving on to your education; whereas somebody that 
has been through some tougher times in a combat situation where 
there possibly could be some mental health challenges that go 
along with that, six months just to process through that.
    It looks so different for each and every servicemember that 
it is hard for me to say a specific time, but I would say a 
minimum of two months, with a maximum of six months.
    Mr. O'Rourke. Okay, that is helpful. Chairman Arrington and 
I serve with a colleague who is also a veteran, Brad Wenstrup, 
and he talked about when he came back from Iraq that he was 
given an amount of time essentially without a job or anything 
that he had to do, and he said that was actually more painful 
than anything. He wanted to have that next thing assigned.
    I wonder if the time period we need during transition has 
got to be enough to ensure that you are enrolled in that 
program so you shouldn't transition and then enroll but you are 
enrolled so you start right away, or you have that next job 
lined up, or you have whatever it is you are going to do next. 
It seems there is a very dangerous period of time--again, Mr. 
Iuta's word--where you don't have that purpose, what do I do 
right now, and too often we see veterans who are unable to 
connect with that next step.
    Mr. Chapman. May I make one suggestion?
    Mr. O'Rourke. Sure, yes.
    Mr. Chapman. I think it would be beneficial for the TAP 
course to be specific to the location, what state specifically 
they are going to be moving to, and what resources and 
opportunities are available in that state.
    Mr. O'Rourke. Great.
    Ms. Meyer, would you care to comment on that? How could we 
improve the Transition Assistance Program?
    Ms. Meyer. Well, I definitely like what he just said about 
tailoring it to where that individual is moving to or where 
they are staying. Each state differs so much in benefits. Take 
Texas, for example. We have the Hazelwood that a lot of other 
states don't have. I think if we took a more tailored approach 
to TAP itself to fit each group of veterans, like say you have 
several veterans who are going to college, tailor it to them. 
If you have several veterans that are going straight into the 
job force, tailor it to them, make it more specific to help 
them.
    I think we also need to talk more about support groups that 
are out there. Like I said, I wasn't even aware of veteran 
service officers, and I know many other veterans are surprised 
by that as well.
    Mr. O'Rourke. Mr. Iuta?
    Mr. Iuta. Oh, yes. So, one of the things that the Army had, 
their TAP program is called the ACAP program. So what happens 
is you are allowed to ACAP three months before you get out. A 
suggestion I would have is that, during that time in ACAP, 
unfortunately you are still tied to your unit, so you still 
have to answer phone calls and stuff like that. My suggestion 
is to completely detach from the unit and actually work through 
those hard three months on that transition, finding a job, 
finding a house.
    One of the things I put down in my statement is the Army 
helped me get a job, but they asked me where I was going to 
live, and actually one of the veteran demographics is that we 
have the highest homeless rate. So just ensuring that they have 
a roof over their head, they have the necessary health 
resources and how to access them, that is the most important 
part. Because they will make you sign up for the VA, but they 
won't tell you how to use them, how it works. So just more 
education on the details of the transition, I guess.
    Mr. O'Rourke. I think that makes a ton of sense. Today we 
were at the Grace campus, which is a homeless area in Lubbock 
with some extraordinary volunteers and support group who are 
trying to help those homeless members of the community 
transition into housing, and we talked about how Texas is third 
in the country for the number of homeless veterans.
    One of the connections that we are missing is that there 
are extraordinary people like Colonel Lewis and other veteran 
service organizations--you mentioned this, Ms. Meyer--who are 
doing wonderful work, and very often that transitioning 
servicemember doesn't know that that is available.
    So in addition to the VA and DoD and every other Federal 
agency, there are also these people who selflessly are 
contributing at their own expense or through their organization 
to a successful transition. So making that servicemember aware 
of what exists in the community would be incredibly helpful.
    Colonel Lewis, I don't know if you want to talk about that 
briefly, about how we do that.
    Colonel Lewis. Yes, thank you. I would love to have that 
opportunity. You don't know what you don't know until you get 
out of the service. A lot of the challenges don't present until 
you are out of the service. So I am a very strong proponent of 
a community-based transition. You start in the DoD, but you 
finish in the community. There is not a VetStar everywhere, we 
understand that, but there is a VFW, there is an American 
Legion, there is a DAV, there is something out there.
    Again, our Boots to Roots is focused on let's get them 
started in DoD and let's get them finished in the community so 
they know where to go. They may come into the community and not 
know--you know, ``I don't have any issues,'' and six months 
later, ``I have issues; where do I go?'' And that is the big 
challenge here.
    You say, well, that is hard to do because you don't know 
where they are going. Well, DoD ships their household goods 
someplace. They know where that is going. So at a minimum we 
could take that data and say where are they going in the 
country and at least alert somebody. I don't think that is as 
difficult as we might think.
    Mr. O'Rourke. Thank you.
    Mr. Chairman, thank you.
    Mr. Arrington. What frustrates me as a Member of our 
Subcommittee, almost on a consistent hearing-by-hearing basis, 
is the lack of data to determine whether something is working 
or not. We struggle with that. We know it is important. 
Everybody understands why transition assistance programs are 
beneficial and necessary. The question is when we are spending 
hundreds of millions of dollars and we don't know what we are 
getting for it. But then I have field hearings and field 
dialogues, and I am sure you do too, Mr. Ranking Member, in 
your district, where I consistently hear that it is not 
working.
    So we feel like we will get to that point, and we are going 
to be working on how we can assess these 5-day-plus-2 programs. 
But when I hear you talk, all of you, I think, 5 days plus 2? I 
mean, who remembers that? And what value can that bring, truly, 
to, as you said, Mr. Iuta, somebody who has been--you know, we 
spend so much time and effort to prepare a soldier for their 
mission, and then to reintegrate their thinking and repurpose 
their whole person for this assimilation as a civilian, I mean, 
we just hardly do anything. It makes it all the clearer to me 
that we have such problems.
    I have a friend who I was so honored to be at his 
internment at Arlington Cemetery. He was a Navy Seal. He was a 
hero. He was a superhero in high school, from Plainview High 
School, and I don't think he could ever make that transition as 
it is defined now as a Navy Seal and as a warrior, and I don't 
know how much time anybody was going to give him to repurpose.
    So you are kind of on your own, and we have 20 people 
killing themselves every day in the military. It is no wonder 
to me.
    So I think the Boots to Roots concept, I just wonder how 
many programs, community-based programs exist, and can we do 
more of what you are doing on the ground through DoD. It feels 
like they are just checking the box, to be very candid. I mean, 
their focus is on you coming in and preparing you. I don't know 
about as much coming out. But you guys own it, and the 
community owns it, because they will deal with the ensuing 
problems as a result of somebody not being ready.
    So I hope we can develop something in the way of a specific 
plan for retooling the TAP program, for heaven's sake.
    Let me jump real quick over here. There are so many 
questions I have written down, and I know that the Ranking 
Member has a hard stop. We might just carry over just a little 
bit.
    But, Dr. Mitchell, I think the program, the accelerated 
Veteran to Bachelor of Science in Nursing is extremely 
innovative. Are there other programs throughout the country 
like this? Did you model this after some other program, or just 
developed it out of a non-off-the-shelf deal?
    Dr. Mitchell. This is primarily developed by the folks in 
our School of Nursing who had had some contacts with the folks 
at METC. And as they were looking through trying to figure out 
exactly, this is such a wealth of knowledge that is just being 
left at the door once these people leave the military, we had 
some of our School of Nursing folks that had contacts at METC. 
So this started out as just a conversation, and there are other 
schools that are doing similar things. But this program 
developed kind of de novo from these conversations that we had.
    Mr. Arrington. Is it proprietary, or can some other 
universities use the curriculum?
    Dr. Mitchell. Oh, no, no, no. We don't want it to be 
proprietary. This is something that--if you look at the number 
of medics and corpsmen that are out there, there is simply no 
way that a single program can funnel all of them.
    Mr. Arrington. There's a good question: have you shared 
this with the nursing associations, the national trade 
associations?
    Dr. Mitchell. Oh, yes. There are a lot of folks in the 
nursing world who know about what we are doing with this. The 
big question was, and the big hesitation was, are you going to 
be able to retrain them and reeducate them to nursing in a way 
that is effective? So the first hurdle was to get them through 
the curriculum, see how they do. The second hurdle is what 
happens when they take the in-class, are they going to do well 
on it? So we had a pilot group that went through, and 100 
percent passed the in-class the first time they took it.
    So the curriculum works. They do very well on the in-class. 
Now we are going to size it up, we are going to ramp it up.
    Mr. Arrington. And that is the licensing--
    Dr. Mitchell. The licensing exam, the national licensing 
exam.
    Mr. Arrington [continued]. It is the national licensing, 
not the state licensing?
    Dr. Mitchell. Correct.
    Mr. Arrington. Okay. So the scores of the folks coming 
through--I have noticed it is about a 100 percent increase 
every year in your program.
    Dr. Mitchell. That is what we are trying to do, double it.
    Mr. Arrington. So where are we at in terms of enrollment 
now? You started with how many?
    Dr. Mitchell. We started with six, we went to 12, we will 
go to 22, then 45. So we will just keep bumping it up. We want 
to target 80 to 100.
    Mr. Arrington. And the results in terms of their testing 
for the licensing exam is comparable to the general population?
    Dr. Mitchell. No, it is much better.
    Mr. Arrington. Really?
    Dr. Mitchell. Yes. One hundred percent passed, and their 
average score was higher than the national average on the exam.
    Mr. Arrington. And they basically stepped out of three 
years of the program.
    Dr. Mitchell. Yes, and what it is, you have to keep in mind 
that these veterans will come through, and in the first two 
years they have a lot of what they call the common core tests 
or classes--History, English, things like that--that we don't 
teach. But what they are receiving is a BSN in a 12-month 
period of time, which is a four-year degree.
    Mr. Arrington. Right, and they are performing even at a 
higher level--
    Dr. Mitchell. Than the average, than the national average.
    Mr. Arrington [continued]. So the competency-based--
    Dr. Mitchell [continued]. Portion?
    Mr. Arrington [continued].--portion where you determine 
what credit they will get based on knowledge and skills--
    Dr. Mitchell. The clinical skills exam.
    Mr. Arrington [continued]. And that is a national tool--
    Dr. Mitchell. It is a national tool.
    Mr. Arrington.--that you can use off the shelf?
    Dr. Mitchell. Correct. All students across the country use 
national skills exams. So what you do is, if you have somebody 
who has been a corpsman for two years versus a medic for 15 
years, they are going to have a different skill level. So you 
are actually bringing them through for their clinical skills 
assessments to see where are you in this curriculum. So you may 
have some people that can move a little faster than others.
    Mr. Arrington. To follow-up on the Ranking Member's comment 
about saving time and resources, and what Mr. Iuta said about 
here I am in a class full of 18- and 19-year-olds and they 
haven't experienced a whole lot of life, or maybe what they 
understand about life but not what a soldier returning would 
recognize.
    So it would seem to me that, especially in the 
undergraduate timeframe, that Texas Tech and other general 
academic campuses might consider that same competency-based 
credit to streamline so it saves time, saves money, but it 
would also give them a sense of value too, because they bring 
something to the table, and they know they do.
    You said they are more mature, et cetera, et cetera. But 
this would be a way to tangibly and measurably say, yes, you 
bring serious value to the table.
    Are there thoughts about that, Mr. Ortiz?
    Colonel Ortiz. Oh, absolutely. We have a couple of programs 
already on campus that maximize experience, military experience 
and training. One is university studies. You get credit, up to 
18 hours, depending on your rank or the training that you have 
had and the military experience you have had. The other one is 
the BAAS program. It is the Bachelor of Applied Arts and 
Sciences. That program is actually a feeder program for all of 
the folks that come out of a two-year program.
    Five years ago we didn't have a place where an Associate's 
two-year degree could go into a Bachelor's. We have that now. 
So that is another mechanism where we can speed up the process.
    We also have another program that we are looking at now. 
The VBSN program was under the auspices, originated under the 
auspices of the College Credit for Heroes Program, and that is 
a program that we signed on to. We have a partnership agreement 
with the College Credit for Heroes. So we are looking at 
different areas where we can maximize experience and credit for 
veterans that come to campus because you are absolutely 
correct.
    Dr. Mitchell. Mr. Chairman, may I add to that?
    Mr. Arrington. Yes.
    Dr. Mitchell. Because this is something, again, that is not 
just solely in the lap of the Federal Government. The State of 
Texas, through the Texas Workforce Commission, the College 
Credit for Heroes gave us the seed money to get this thing 
developed. So this is something where the Health Sciences 
Center, we have skin in the game by redeploying faculty members 
toward this area. The State of Texas has skin in the game, and 
the Feds have skin in the game with this. So this is something, 
it works out for everybody. Everybody can share the burden, and 
then everybody gets the benefit.
    Mr. Arrington. Well, I am glad to know we can point to a 
Federal program where their investment has returned significant 
value. I think you mentioned HRSA and some other groups. I read 
your testimony. We need to identify those programs and pots of 
money and write letters and find ways to get the commitment of 
my colleagues on both sides of the aisle, but I think 
especially there is skepticism as a Republican where some of 
these monies, where they go and what are the results. But this 
is a great example, I think, of serving the public by serving 
our veterans through these programs.
    Do we know, can you measure on the MVP program, getting off 
the academic program and just the support program of the MVP--
and I am proud to see how it has developed and grown. But could 
you tell us what the veteran population prior to MVP, how they 
performed in terms of student success, retention, graduation 
rate, employment rate? Maybe you can't, but that is I think 
what I would like to know, what was it like before, or compared 
to a university today. Take a population at a university of 
comparable size that has veterans but doesn't have an MVP 
program. Can we measure that it has improved, if not 
significantly transformed, how our veterans matriculate?
    Colonel Ortiz. Oh, absolutely. The Student Veterans of 
America has done extensive work in terms of measuring 
performance of our veteran populations. So here at Texas Tech 
we have always had a portion of the student population that was 
veteran based, and we have had veterans here at Texas Tech 
since World War II, or since the inception of the campus here.
    In terms of measurement, we work with institutional 
research. We track our performance data relative to the rest of 
the campus population. That is whether you are talking about 
retention statistics, graduation statistics. There are some 
metrics that we don't track. We would love to do that.
    Within MVP right now I don't have a data analyst. We rely 
on the standard reporting metrics for the rest of the student 
population. But that is something we would like to incorporate.
    Mr. Arrington. Could you tell me now? Because the student 
veteran survey was a good start, but it wasn't apples to 
apples. My problem is they took their success rate over every 
program--four-year, two-year--and they are just very different. 
But do you know that the program you have for the apples to 
apples comparison of undergrad four-year programs as a veteran 
student or dependent versus general population and that one 
performs as well or better than the other? Do you all have that 
much data?
    Colonel Ortiz. We can measure that, yes. Yes, we can.
    Mr. Arrington. Are they performing as well or better, or 
are they performing better?
    Colonel Ortiz. They are performing equivalent or better 
than the general student population. Yes, sir.
    Mr. Arrington. And do we know that much over there at the 
Health Sciences Center in terms of how the general population 
versus our veterans--I am not talking about the degree program. 
I am just talking about the support system that you provide for 
veterans there.
    Dr. Mitchell. No, but that is easy to look at, because we 
have all of our veterans identified.
    Mr. Arrington. I am going to ask the Ranking Member to take 
over here. But one thing that we often discuss as a 
Subcommittee--and there is one man in particular who brings 
this up. I think it is a valid concern, and that is some of the 
schools on the for-profit side who churn out a lot of veterans, 
and the concern is are they getting a quality service and are 
they getting a quality product for the taxpayer money and for 
the time invested by the veteran. I think it is a legitimate 
question, but I think the answer to that for me is getting to 
outcomes and supporting universities that are producing results 
and making the investment, like you guys have, to support your 
veterans through the program. It is a very robust program.
    So if you are performing and the success rate of your 
students is high on retention and graduation, and mostly 
employment--I would think that would be the highest measure of 
success--then there should be a reward for that. And if you 
don't produce that, I don't think you ought to get the taxpayer 
money. That is how I feel about it. We are a little ways from 
being able to do that, but I make no secret where I would like 
to go because I think it would solve the problem. If you are a 
for-profit and you are performing for our veterans, great. If 
you are not, whether you are a for-profit or a public, why 
would we keep throwing good money after bad?
    So it is more of a statement. If you have comments, I would 
love to hear them. Otherwise, I yield to the Ranking Member.
    Mr. O'Rourke. Dr. Mitchell, could I ask you one more 
question about this, the nursing program we have been talking 
about? How unique is that?
    Dr. Mitchell. How unique is the program?
    Mr. O'Rourke. Yes, like how many other institutions have 
reduced a four-year commitment--
    Dr. Mitchell. You can count them on one hand.
    Mr. O'Rourke. Okay. And how many more are there, ballpark, 
in the country?
    Dr. Mitchell. Nursing programs? It is over 1,000 nursing 
schools in the United States, including the two-year programs. 
I mean, I think it is over 1,000 nursing programs.
    Mr. O'Rourke. I won't hold you to it, but to the best of 
your knowledge, how many people are doing this? Is it under 
five?
    Dr. Mitchell. A handful. Texas A&M has a program, we have a 
program--it is just a handful of people that are doing this.
    Mr. O'Rourke. So I think one idea that comes out of this 
hearing is to either administratively require or ask the 
Administration to require every nursing program to follow your 
lead. If you can do it and you have the performance that 100 
percent are passing and their scores are higher than the 
national average that is a really good indication of the value 
of doing it this way. If we are saving three years of tuition, 
that is even better, to the Chairman's point about safeguarding 
the taxpayer's dollars.
    And if the Administration can't because they don't have the 
authority, or won't, then I think the Chairman and I should 
discuss a bill that would require any nursing program that 
receives Federal GI Bill resources to take the Texas Tech lead 
and go from four to one year. It is a great value for the 
veteran, which is the most important thing, and a great value 
for the taxpayer, which is important as well.
    And then I would think from there, there have got to be a 
number of other programs. If you were part of the Cyber 
Command, if you were a programmer, if you had some other 
technical vocation within the military, we shouldn't require 
you to go to school to relearn that and blow a bunch of GI Bill 
earned-benefit resources on that. We should get you plugged 
into that job. It gets back to this function thing: Are we 
going to delay your purpose for four years, or are we going to 
plug you in in less than a year?
    That is the way to do it, and I think we could really be on 
to something here. I can see it in lights right now that the 
Arrington GI Bill reform measure that saves taxpayers billions 
of dollars every year and gets veterans connected--
    Mr. Arrington. You had me at saving billions of dollars.
    [Laughter.]
    Mr. Arrington. I will even name it after you if we can do 
that.
    [Laughter.]
    Mr. Chapman. Whenever they built this program, I believe 
they looked at it in a very holistic manner, not just the 
degree itself. They knew they needed somebody in place to help 
do the processes of getting into the program itself, because 
that is an education alone, and that is what I do. Some of them 
are working for two years, some it is a week. It just depends. 
But generally my first conversation lasts from 20 up to 30 
minutes just to get them a brief of what all they can 
anticipate happening through their process.
    And also we have a great--we use what is called--are you 
all familiar with Zoom? It is kind of like Skype. What it 
allows me to do is--just last week I was having an advising 
session with a student in Kuwait where I can share my screen 
and show them exactly what needs to be done. It is much like 
the TAP thing, except we are doing it at our institution, 
guiding them through it. And I think--actually, I know that in 
that process and in that journey to come into our program, I 
feel it is my duty as their liaison to make sure that they have 
a complete trust in us that we are going to do everything we 
can to make sure they are successful if they reciprocate that 
to us.
    I think it should also be noted that there is a broader 
view than just the courses themselves.
    Mr. O'Rourke. And I would like to take what you shared, and 
what Ms. Meyer and Mr. Iuta have shared, and then Colonel 
Ortiz, as you have described how you have been able to 
successfully integrate returning servicemembers here, and have 
that inform our work with the Department of Defense on the 
Transition Assistance Program, if there are some best practices 
that are clearly working here, and maybe even using the 
technology that you just described.
    If we can take your recent experiences and inform a better, 
more comprehensive program, I would say that the endpoint would 
be getting to what Colonel Lewis has championed and pioneered, 
which is connecting you with the community and having roots in 
that community. This is where you are welcomed, where you have 
family, where you have purpose, and where you are going to be 
successful, not as the victim and not as somebody that we have 
to repair but someone for whom we are desperate to find a home 
because we know you are going to fire on all cylinders once you 
get here to Lubbock or to El Paso, or to wherever it is in the 
country that you are supposed to be, and the community is ready 
for you and they are excited for you and ready to plug you in.
    I mean, I just think that we would have such better 
outcomes if that were the model. I think the Chairman has been 
really good about this. We would have to figure out how we 
measure that to know that we are being successful. I mean, I 
think there is probably anecdotal feedback we could get, but 
also what is the earning potential of someone who goes through 
this revised TAP program, or what is their educational success 
and how do they perform in other ways that we can look at and 
measure.
    So those would be three things, Mr. Chairman, I would love 
to work on with you just out of this hearing, building on this 
nursing program, going from four years to one, saving money and 
getting someone plugged in far more quickly based on the skills 
and experience that they have already accrued, rewriting the 
TAP program based on the experience that some of those on this 
panel have shared with us, and then this idea of effective 
community integration that has been pioneered here in Lubbock 
through Colonel Lewis and others.
    You may have other things that you take from this, but 
those are the three that I am really excited to work on with 
you, and I think this hearing could provide the impetus to get 
those done, or at least far along the way over the course of 
2018.
    Mr. Arrington. I agree, I agree, and I think that is well 
articulated. I think the themes were very clear, and the 
opportunities to replicate the best practices are very clear as 
well.
    If I may just ask, I know you have to go at some point, so 
I don't want you to--when it is time, please feel free. I 
wanted to ask Kyle about issues outside of counseling on 
benefits and the logistics of working with the VA as an 
advocate and an intermediary for your student veteran.
    Outside of that or in addition to that, the things on the 
social side, on the mental health-related side, other issues 
that a veteran, a non-traditional student is dealing with, what 
would be the one thing that causes the veteran the greatest 
challenge in integrating as a student to perform, and obviously 
as a new civilian, again outside of the VA benefits?
    Mr. Chapman. That is a great question. It is tough to 
answer because I have found, through the hundreds of phone 
calls and advising sessions that I have given, it looks 
different for each and every one of them. I think it is the 
individual that is working with them to kind of gauge that, 
where are they at, and how much do you need to help them, 
essentially. Some are running away with it, but there are 
others where you have to show it to them so they can physically 
see what they need to do. Then they get a familiarity with it, 
and then they can move on to the next thing.
    Mr. Arrington. So it is a case by case.
    Mr. Chapman. It is.
    Mr. Arrington. You can't say that if we could tackle this 
one issue for our returning soldiers with respect to when you 
get them for higher education, we would solve 80 percent of the 
problems. You say it is case by case. It is not that clear-cut 
that there are one or two things that would be the bigger of 
the problems, which again I go back to if you measure the 
outcomes, then you won't be trying to dictate which things you 
have to do programmatically. It is just to invest the resources 
and the time and the effort to find out and be proactive in 
engaging the veteran community, and then have a plan specific 
for those individuals, because we will reward you if you do 
that because we care about the success rate of our student 
veterans.
    Mr. Chapman. I want to say the best answer to that is to 
have people in place who can do just that, that can listen to 
them and kind of get a gauge of where they are at and what 
processes need to be taken, or what steps need to be taken with 
each individual.
    Dr. Mitchell. Mr. Chairman, I think having things where a 
veteran--if they have pathways in the civilian life that are 
similar to the pathways they have been placed on in the 
military, everything in the military is for military readiness. 
There is a lot of that, a lot of the educational endeavors they 
are picking up along the way that aren't headed toward a 
degree. They are headed toward better military readiness. But a 
lot of those things parallel what educational institutions do 
for a very different reason. The success of the veterans' 
programs is because we have the people on both sides of this 
compare notes, overlap--what if this lays over with this? Quite 
frankly, that can help to make their transition easier because 
they are going from something familiar to them to something 
else familiar to them in just a different setting.
    That is why we are looking at the School of Pharmacy. 
Pharmacy technician is a way to overlay that, and the School of 
Health Professions. Are there things they are doing here that 
we can overlay with this? Is there something in cyber security? 
Is there something you can do to overlay over here with the 
civilian job that would be in electronics?
    But the military does it for military readiness. They are 
not doing it trying to get them a degree. But a lot of what 
they train them to do overlaps with a civilian counterpart. And 
if you can just marry them up and use competency-based 
evaluations, you could save them a lot of heartache on the 
military side, on the veteran side, and you could really shore 
up a good workforce on the civilian side that is highly trained 
in that area.
    Mr. Arrington. You mentioned a specific recommendation. Mr. 
O'Rourke, you have been here longer, and you are much wiser on 
these things, I admit. But the 85/15 rule seems to make sense 
when I understand it as you have to have some demonstration 
that there is value to the program in such a way that you can 
attract at least 15 percent of the general population to attend 
such a program and to participate. I get that. I think that 
makes all the sense in the world.
    But it also makes sense--and I am wondering why, because it 
seems like you have more than that in the Health Sciences 
Center. Maybe they measure it on a program by program basis?
    Dr. Mitchell. That is what happens. In the Veterans to BSM 
Program, it is for veterans.
    Mr. Arrington. It is for veterans.
    Dr. Mitchell. There is no 15 percent civilian.
    Mr. Arrington. So in that case, if you are accredited--
    Dr. Mitchell. The DOE, the Department of Education, they 
are measuring the quality of your programs.
    Mr. Arrington. Does it make sense? It seems to me that in a 
situation where the program is for veterans, you will never be 
able to prove out that 15 percent. That is just not what it is 
for. But if there is an outside, universally respected entity 
that is giving them some accreditation or rating, that we 
should use that.
    Dr. Mitchell. It is Federal Government accreditation.
    Mr. Arrington. Yes, it is a Federal--
    Dr. Mitchell. It is DOE.
    Mr. Arrington. What are your thoughts on that? Does it make 
sense to you?
    Mr. O'Rourke. To seek the advice of counsel.
    [Laughter.]
    Mr. O'Rourke. She will work with you.
    [Laughter.]
    Mr. Arrington. All right.
    Mr. O'Rourke. No, it makes sense, what you just described. 
If we have measures that satisfy the concern primarily, again, 
of the veteran, are they successful having gone through this 
program, are they able to find a job and their purpose, is the 
taxpayer's investment protected, 85/15 doesn't matter to me, it 
really doesn't. I just want to make sure that those things are 
satisfied. Maybe 85/15 was a way to kind of get an idea that 
there was value outside of that ready GI Bill money, that 
somebody outside of that who is risking their own private 
dollars sees value in it, and I understand that. But if there 
is a better, more comprehensive measure, let's go with that.
    Mr. Arrington. I thought it was on the institution but not 
on the program. So it is program by program. Okay, you always 
learn something.
    Do you want a question or two? I am just going to follow-up 
with two more and then I am done.
    Mr. O'Rourke. No, I want to listen to you.
    Mr. Arrington. I have tremendous respect for Colonel Lewis. 
He has been doing this a long time. I principally believe 
strongly that the more that we can divest the VA of services 
where they can be done on the ground, in the community, in 
relationship with the customer, the better and more effective. 
Of course, again, where is the data? I don't know, but I just 
intuitively believe that.
    So where would you say just generally, as you look at the 
VA transition program or otherwise, we can do just that because 
you just know in your experience that it will be better 
executed, implemented, and performed at the local level?
    Colonel Lewis. Great question. I think SSVF, the homeless 
program, gives us a great model for that. Basically, the VA 
came to the communities and said you know more about your 
homeless population than we do in Washington, D.C. The VA has 
had a housing program in our area operated out of Amarillo for 
a long time. I have had an SSVF program for two-and-a-half 
years. We have housed 230 homeless veterans in this region 
between Lubbock, Amarillo, and the 30-county area.
    How did that happen? Well, because we knew where to go 
look, where to connect with people, how to find centers of 
influence, how to do the things that we need to do.
    I think it is a great model to say this is what happens, we 
provide the resources, you provide the expertise locally, 
because there is an environmental change everywhere you go. So 
I think that is a great model right there to be able to say you 
have the boots on the ground, you have the expertise. We can do 
that in a lot of areas in the transition pieces. Big towns that 
have great universities, or even small towns with great 
universities, have that wonderful opportunity to be able to 
take that university expertise and leverage that into the 
services that need to be provided to our transitioning 
veterans.
    Mr. Arrington. You said the transition, Mr. Iuta, had to be 
redefined, just the word ``transition.'' How would you define 
transition?
    Mr. Iuta. I think a lot of times we think of transition as 
far as the military, transition is just that part where you are 
in that process of getting out of the military, and it just 
stops right there. But I think transition extends beyond just 
getting out. It extends all the way until the veteran is able 
to at least somewhat be able to be independent or be 
sustainable by himself.
    Mr. Arrington. Nicole, I can't help but say that if our 
office can be of assistance to you, that is what we are here 
for. So on your issue of the disability claim process or 
appeals process, that was one of the big issues we took on as a 
Committee and actually passed one of those eight bills that I 
said made it to the President's desk, to restructure that so it 
would work for you guys and would be much more efficient.
    There were some 450,000 claims in arrears, and I think the 
average was a year or two years, but it was not good. So that 
is just being rolled out, I believe. But in the meantime, if 
our office can help you with that, let's talk after this, okay?
    Ms. Meyer. Thank you, sir.
    Mr. Arrington. I am going to ask the Ranking Member if he 
has any closing thoughts, comments, or questions. I will let 
him have the last word, but I will say I am so pleased and 
truly inspired by you guys and your commitment to helping your 
fellow brother and sister in the bond of being a veteran, and 
having served and having to deal with the challenges that one 
faces coming out, and being able to give back in the way you 
are doing now. I know that our President, Lawrence Schovanec, 
is a veteran himself, and I know he is personally committed.
    I think creating a culture that supports the veterans is 
really what--that is the ultimate goal. I read that throughout 
the testimony and how you recognize and reward, and how you 
have faculty, hundreds of faculty--I think 700 have taken some 
of these courses. That 700 faculty at a university taking 
courses to better understand how they can support their 
veterans, if it is part of the culture, I think you have won. I 
think the veteran wins. I am just so proud of the work that you 
guys have done, and sorry for shamelessly trotting out these 
wonderful people and programs for my Ranking Member.
    But I wish all of the Committee Members that we serve with 
could hear your stories and all the good work you are doing. He 
is always the best at distilling it to the two or three things 
that we can glean from it, follow it up, take it back, work on 
it, and hopefully make it have an impact to better serve our 
veterans.
    God bless you guys. Colonel, thank you. Everybody, Mr. 
Ortiz, appreciate your leadership there.
    For the closing comments, I will ask the Ranking Member to 
close us out.
    Mr. O'Rourke. Well, I want to thank you. We wouldn't have 
this hearing here in Lubbock if you had not requested it and 
you worked with our team, our office, this amazing staff who 
supports us and who really leads on these issues and does the 
necessary work to make sure that our Committee can be 
successful.
    Again, Lubbock and Texas Tech have been incredibly 
welcoming, and I am very grateful for that.
    I am struck, Mr. Chairman, as I was when I first started 
serving in Congress on the House Veterans' Affairs Committee, 
by how veterans really distinguish themselves through their 
service, that they have served in uniform, they have put their 
lives on the line for so many, and they have lost so much while 
serving this country, have come back and never stop serving. 
They do it in veteran service organizations, they do it through 
their testimony here today, they do it by holding our feet to 
the fire, creating the pressure that sometimes forms the 
necessary political will to get things done that otherwise 
aren't going to happen of their own accord.
    There are no enlightened Members of Congress who just come 
up with great ideas and make them happen. We are very often 
almost exclusively forced to do that in a good way by those 
whom we represent. They are the inspiration, they are the 
force, they are the drive, and I found that to be the case 
today. I mean, so many notes that we have taken, I think 
potentially good bill ideas; or, as you often remind us, if we 
don't have to write an act of Congress and we get the 
Administration to do it of their own volition or with our help, 
all the better, but good is going to come out of this.
    You facilitated it. Those on this panel made it happen. So 
we are very grateful for your testimony, your contribution.
    Colonel Lewis, who I had the pleasure of meeting almost a 
year ago, blew me away by his leadership, what he had 
organized, the people that he introduced me to here in the 
community. The great VA staff in Lubbock, the excellent VA 
staff in Amarillo, all the veterans who serve in this area, 
like you, really make me proud. It is a huge honor. I am so 
lucky and so fortunate to be here and have this responsibility, 
and with you to be in these positions of public trust to be 
able to do something with it.
    My closing idea that came from Colonel Lewis is that El 
Paso, I think at least until recently, lead the country in what 
they describe as ``brain drain,'' talent that we nurture, we 
educate, we provide the quality of life, the museums, the 
parks, the paved streets, and then leaves our community and 
flourishes somewhere else. We are also a military community, 
Fort Bliss, 32,000 active-duty servicemembers and incredibly 
wonderful tradition of service there, so many veterans and so 
many military retirees.
    I love your idea of connecting those separating 
servicemembers with the community perhaps from which they came 
and applying their skill or service, maybe facilitated through 
a great institution like Texas Tech, and connecting them with a 
career and providing that vitality that is sometimes missing 
from El Paso. I don't know about Lubbock, but you mentioned 
Plainview earlier. I think about just the cities of the Plains 
and the Panhandle, of Pampa and Dalhart and Booker and Canyon.
    Why don't we connect those veterans who came from those 
communities back with careers and opportunities connected to 
education? I love, love the Boots to Roots concept, and I hope 
there is some way that we can help to implement that. One, and 
first and foremost, it is really good for the veteran; and two, 
it is just so good for those communities. And again, your 
mindset of seeing veterans as an opportunity and potential and 
a net contributor is a way that we have to approach it from 
Congress, and we will because of your example and the way you 
have shown us to do that.
    So my thanks to each of you for doing this, to the great 
staff who helped to make today a success, and most of all to 
you, Mr. Chairman, for inviting us all to be here. Thank you.
    Mr. Arrington. You know, the American people on both sides 
of the aisle are fed up with Washington, and I was right there 
with them as I was running, raging against the machine. I think 
they are very right to feel that frustration, and even anger. 
But I hope my colleagues and my fellow West Texans saw today 
what I think they don't get enough of. Maybe it is just the 
media. Maybe it is just not happening enough, and I think it is 
probably a little bit of both, and that is people who are 
putting partisanship and other interests aside, putting America 
first, rolling up their sleeves, solving problems, and 
delivering on the promises. That is more a credit to you and 
our colleagues on the Committee than me and my leadership, but 
it is an honor to serve with you, Beto.
    Okay, guys, my last act as the Chairman of this 
Subcommittee before we close out is to invite our Ranking 
Member to a horned frog roast. I don't know if he has ever 
eaten a horned frog. It tastes like chicken.
    [Laughter.]
    Mr. Arrington. But I will make a prediction: We will win 
and win big because Cliff King is on fire and ready to prove 
something to a lot of people, and I am still believing. So if 
you can stick around, it tastes like chicken. Roger Williams, I 
hope that is for the record and he reads it.
    Now I ask unanimous consent that the Angelo State 
University letter be submitted into the record and that all 
Members have 5 legislative days to revise and extend their 
remarks.
    Without objection, so ordered.
    Mr. Arrington. This hearing is now adjourned.

    [Whereupon, at 4:00 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Tedd Mitchell
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
Members of the Subcommittee on Economic Opportunity of the House 
Committee on Veterans' Affairs, my name is Dr. Tedd Mitchell. I am the 
President of Texas Tech University Health Sciences Center (TTUHSC), one 
of four component institutions within the Texas Tech University System. 
It is an honor to be a witness before your Subcommittee on the very 
important topic of best practices in veterans' education and transition 
to civilian life.
    First, I would like to mention TTUHSC has had a long partnership 
with the Department of Veterans Affairs (VA) that started in 2006 with 
the medical academic affiliation agreement which has allowed our 
students to have rich invaluable clinical training opportunities within 
the VA Health Care Systems. TTUHSC's partnership with the VA will be 
enhanced with the building of the new and expanded Lubbock VA Community 
Based Outpatient Clinic on the TTUHSC campus. TTUHSC is honored to be 
the site of this new clinic which will provide improved and expanded 
care to South Plains veterans. On behalf of these veterans, TTUHSC is 
grateful for the VA Committee's willingness and foresight to authorize 
the creation of this new clinic.
    TTUHSC prides itself in its commitment to veterans and their 
families and its recognition of their service to our country. Last 
week, TTUHSC held its annual Veterans Day ceremony honoring the men and 
women at TTUHSC who have served our country. As a member of the Council 
of College and Military Educators, TTUHSC strives to ensure veterans 
have a successful transition into the college setting and, once there, 
receive the support they need to be successful.
    For the fall 2017 semester, TTUHSC has a total of 118 veterans 
enrolled in its programs. TTUHSC has student veterans in all five of 
our schools: Nursing, Health Professions, Medicine, Pharmacy and 
Graduate School of Biomedical Sciences. These students are located 
throughout West Texas on our six regional campuses; Abilene, Amarillo, 
Dallas, Lubbock and the Permian Basin. The Texas Tech University Health 
Sciences Center at El Paso has a total of 21 veterans enrolled in its 
programs. These students are in the Paul L. Foster School of Medicine 
and the Hunt School of Nursing.
    TTUHSC has committed itself to the Department of Veterans Affairs 
Principles of Excellence program and has been identified as a Military 
Friendly University (Bronze Level) by G.I. Jobs Magazine. Our Veterans 
and Military Advising Office within TTUHSC Student Services assists and 
guides prospective and accepted students from initial contact going 
forward. This office assists students through the process of utilizing 
their VA Education Benefits and Hazelwood Exemption which is a state 
program.
    TTUHSC takes the stress off veterans by ensuring all necessary 
documents are submitted to the Department of Veterans Affairs to 
certify student enrollments. Sarah Henly serves as TTUHSC's Veteran and 
Military Advisor and is a veteran herself. Our Veterans and Military 
Advising Office and Sarah's Dedication have produced phenomenal results 
for veterans interested in enrolling in TTUHSC but who may have found 
the experience to be too daunting.
    The Veteran and Military Advising Office continues to be the 
primary point of contact and resource for veterans after they have 
enrolled and begin their degree program. TTUHSC hosts lunches each 
semester for our student veterans on all campuses TTUHSC recognizes our 
student veterans all the way to the end. At commencement, graduating 
veterans receive military stoles with a red double T to recognize not 
only their recent accomplishment but service to our country as well.
    One of TTUHSC's more innovative programs is the Accelerated Veteran 
to Bachelor of Science in Nursing (VBSN) track. VBSN is a nursing 
degree completed in 12 months specifically designed for veterans with 
prior military medical training. This program allows veterans to 
receive competency based college credit and to earn their BSN in less 
time with less cost.
    This program is unique in that TTUHSC faculty developed this 
curriculum with the Medical Education and Training Command (METC) 
located at the Joint Services Base in San Antonio, Texas. TTUHSC 
faculty collaborated with METC personnel to review the METC curriculum 
for medics. The medic curriculum was examined to determine which 
courses offered key elements similar to nursing courses. This program 
then created a competency based examination to award college credits by 
recognizing prior learning. Veterans have the opportunity to be given 
college credit for four courses (14 semester credit hours).
    TTUHSC received support from the US Department of Health and Human 
Services Health Resources and Services Administration (HRSA) to develop 
and implement the VBSN program. HRSA's Nurse Education, Practice, 
Quality and Retention (NEPQR) -Veterans in Bachelor of Science in 
Nursing Program awarded $1.04 million. TTUHSC also received $200,000 
from the Texas Workforce Commission. Both grants have been great 
resources and we recommend Congress continue to fund this program.
    The VBSN has had phenomenal success. The current 2017 VBSN class as 
12 students. Seven students graduated in December 2016 and all passed 
the nurse licensing examination. The incoming cohort for 2018 has 22 
students. For 2019, TTUHSC has 45 prospects. TTUHSC anticipates 
increasing our numbers annually by 50 percent. TTUHSC offers the VBSN 
program in seven locations: Lubbock, Amarillo, Odessa, Abilene, Dallas, 
Austin, and San Antonio. As a result of VBSN's success, TTUHSC's School 
of Pharmacy and School of Health Professions are considering offering 
competency-based education as well.
    TTUHSC would like to offer recommendations for the Subcommittee to 
consider to improve the quality of education for student veterans.
    Federal funding for education programmatic initiatives Continue to 
approve federal funding for HRSA's NEPQR grants. HRSA's Nursing 
Education Practice, Quality and Retention (NEPQR) - VBSN Program Grant 
was critical to supporting new program development to serve veterans.
    Military Housing Allowance (MHA) To take into consideration the 
growth in distance education, determine the housing allowance based 
upon where the student does their clinical work. VBSN students do their 
clinical work at a ``site,'' rather than on a campus. TTUHSC is very 
grateful for the work of the Subcommittee on its passage of legislation 
to expand and extend the G.I. Bill. This Subcommittee recognized that 
students do not necessarily receive their training in the same location 
as where the school is headquartered, in TTUHSC's case Lubbock. TTUHSC 
is very grateful the Subcommittee clarified the Monthly House Allowance 
(MHA) to beneficiaries of the Post-9/11 G.I. bill, to allow veterans to 
receive MHA based on the location where the student attends the 
majority of his/her classes. This legislation will have a profound 
effect on our students at TTUHSC's six regional campuses. TTUHSC 
understands the Subcommittee's concerns about schools taking advantage 
of this new provision. We would ask the Subcommittee to consider the 
feasibility of having the VA pay MHA based on the site where the 
student is located since many programs are 100 percent online with only 
clinical experience required. Again, TTUHSC is grateful for the changes 
the Subcommittee has already made to the MHA.
    VA 85/15 Rule Eliminate the application of the VA 85/15 rule 
entirely for entities with regional and professional accreditation. The 
85/15 rule is not effective in maintaining educational quality in that 
it claims to use the market place to ensure quality of the educational 
offerings, requiring each course to include a minimum fifteen percent 
civilian population enrollment. It also does not address the unique 
needs of veterans transitioning to civilian life and education, 
precluding courses designed to help veterans in this transition being 
prevented from certification for VA education benefits. A solution is 
to allow the agencies with DOE deemed status - such as SACS/COC - to 
determine quality.
    Again, thank you for the opportunity to appear before this 
Subcommittee and to share TTUHSC's best practices in support of our 
student veterans. TTUHSC appreciates the service and sacrifice these 
students have made. Assisting them to reach their academic and career 
goals will continue be a priority for TTUHSC.

    Tedd L. Mitchell, M.D.
    President
    Texas Tech University Health Sciences Center
    3601 4th Street
    Lubbock, Texas 79430

                                 <F-dash>
                Prepared Statement of Aaron Kyle Chapman
    Good afternoon Chairman Arrington, Ranking Member O'Rourke and 
distinguished Members. Thank you for inviting me to appear before your 
Subcommittee. My name is Kyle Chapman and I had the honor of serving in 
the U.S. Marine Corp from December 2000 to December 2004 with 3rd 
Battalion 5th Marines and 2nd Battalion 4th Marines. Currently I serve 
as the Texas Tech University Health Science Center (TTUHSC) School of 
Nursing (SON) Veteran Liaison and work closely with the Veteran to 
Bachelor of Science in Nursing (BSN) Track. I would like to share a 
portion of my story about my transition from military life to civilian 
life and how it has impacted what I do today.
    When I exited the Marine Corp and became a civilian I was within a 
month removed from my second tour of combat in Ramadi, Iraq. In 2005, I 
began college at South Plains College and did well. I then transferred 
to Texas Tech University (TTU) the summer of 2005 at which point I was 
mentally, emotionally, and physically not coping well with my 
transition. I fell into a depression trying to cope with flashbacks and 
nightmares or better known as Post Traumatic Stress (PTS). I stopped 
going to class and left TTU with a .62 GPA. In April 2009, through 
different sorts of intervention from family, friends, and VA mental 
health counselors I decided to attend the Amarillo VA substance abuse 
and recovery program. I have been sober since April 2009. I went back 
to school at South Plains College the fall of 2011 and restarted my 
college journey. In summer 2013 I was able to transfer back to TTU on 
academic probation and graduated in August 2015 Cum Laude with a degree 
in Human Development and Family Studies and minor in Addictive 
Disorders and Recovery Studies. My intent was to work with military, 
veterans, and their families in a resource, PTS, and substance abuse 
manner. Much of my success in college was due to the TTU Military and 
Veterans Programs (MVP) assistance. In October of 2015, I was hired as 
the TTUHSC SON Veteran Liaison.
    Today I have the distinct honor to serve military and veterans 
locally, in Texas, nationally, and globally through my position with 
the purpose of assisting them with their transition to higher 
education. On a daily basis I work with military and veterans to help 
them through the application process of the VBSN track which includes 
the application and admission process. After acceptance, I continue to 
assist with any issues or concerns that may arise until the day they 
graduate.
    I believe one of the greatest ways to honor our military and 
veterans is to recognize and honor the value they bring to our society 
through their career and educational endeavors. In the Veterans to BSN 
track we do just that. We do this in several ways but most importantly 
the VBSN track honors their service by recognizing they have a working 
and practical knowledge of skills obtained while serving in the 
military. If they can demonstrate their knowledge to our faculty 
through testing and practical application (known as a Comprehensive 
Assessment Placement -CAP) they are exempt from having to take these 
courses if they so choose. Therefore our veterans are able to graduate 
more quickly and with less debt. (Please refer to the Veteran to BSN 
brochure)
    The Veteran to BSN Track is a tremendous degree plan that I believe 
takes into consideration the holistic view of transition from military 
to higher education. However, there is always room for improvement and 
challenges to face. One challenge that is not only true for VBSN and 
TTUHSC students but all institutions that have reginal campus and 
satellite locations is the Post 911 G.I Bill Basic Allowance for 
Housing or better known as the BAH rate. I am sure you all are familiar 
with this benefit but as an example currently the BAH rate for Lubbock, 
TX is $1,097 per month and San Antonio, TX is $1,811 per month. Being 
that Lubbock, TX is where the official TTUHSC institution is physically 
located our students attending the VBSN track in San Antonio, TX will 
receive the BAH rate in Lubbock. So, our students in San Antonio are 
receiving $714 less per month where the cost of living is significantly 
higher.
    I am thankful this Subcommittee addressed this inequity in the 
passage of H.R.3218, the Harry W. Colmery Veterans Educational 
Assistance Act of 2017. Thank you for allowing veterans to receive MHA 
based on the location where the student attends the majority of their 
classes. This will help our students at TTUHSC's regional campuses. I 
understand the Subcommittee's concerns about some schools taking 
advantage of this provision. As the Subcommittee monitors the 
implementation of H.R. 3218, I would suggest the Subcommittee consider 
allowing students to receive MHA at the ``site'' where students do 
their clinical training as well where as many students receive their 
didactic training 100 percent online. Please know, we are thankful for 
the change made by H.R.3218.
    Providing resources for military and veterans to transition into 
college and into the workplace are very important. As a student at TTU, 
the MVP was crucial to my success as it is for many military and 
veterans. Also, degree plans much like the Veterans to BSN are 
invaluable as they recognize the value of their service and allow them 
the opportunity to capitalize on their skill set and turn it into a 
career, which is the goal. I am proud to have served in the U.S. Marine 
Corp, of my University and to serve our military and veteran students 
at Texas Tech University Health Science Center. I am honored to have 
this opportunity to share my story and am glad the subcommittee is 
devoting its time on this important initiative. In closing I would like 
to quote one of our current VBSN students who was recently recognized 
for her assistance with Hurricane Harvey relief efforts.
    ``The situations in the military are uncontrolled field settings,'' 
Grant said. ``That training has helped me stay in the correct mindset 
while I work in more controlled environments. The best part of TTUHSC 
is that they have acknowledged all of my training in the Army. A lot of 
places say they are military-friendly, but TTUHSC really backs it up. 
They stand behind their military students. When they say it, they mean 
it.''

                                 <F-dash>
                    Prepared Statement of Lou Ortiz
    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
House Veterans Affairs Economic Opportunity Subcommittee, welcome to 
Texas Tech, and thank you for the opportunity today to describe our 
main campus programs that directly support the education goals of our 
military and veteran students who have served and sacrificed for our 
nation.
    Texas Tech University Military & Veterans Programs was created in 
2010 as a department solely dedicated to helping veterans and their 
families succeed. We currently serve more than 2,200 student veterans 
and dependents on the Texas Tech University main campus and have 
developed a veteran support structure and culture that serves their 
needs. We are proud to assist these students in transitioning from 
military to academic life, providing them with a campus support 
structure that presents the best opportunity for academic success, and 
preparing our veteran graduates to enter the workforce. We serve 
undergraduate, graduate, and law students on our main campus and 
satellite locations across the state including Waco, Dallas, Junction, 
Fredericksburg and Marble Falls, Texas.
    Our core mission is to assist veterans in obtaining the federal and 
state education benefits they have earned by virtue of the service to 
our nation. VA federal benefits we administer include:

    1. Chapter 30 Montgomery GI Bill

    2. Chapter 31 Vocational Rehabilitation

    3. Chapter 32 Veterans Educational Assistance Program

    4. Chapter 33 Post 9/11 GI Bill

    5. Chapter 1606 Reserve GI Bill

    6. Chapter 1607 Reserve Educational Assistance Program

    7. Chapter 35 Dependent's Educational Assistance

    We also administer the State of Texas Hazlewood Act (Exemption) for 
Texas veterans as well as DoD Tuition Assistance Programs for students 
who are on active duty.
    Beyond our core benefits role, the Military & Veterans Programs 
Office serves as an integration and resource office for all military 
and veteran related organizations, activities, events on the main 
campus. We work hand in hand with the Student Veterans of America 
Chapter--Veterans Association at Texas Tech, Tech Law Military 
Association, Faculty & Student Veterans Association, Army and Air Force 
ROTC, and the Military & Veterans National Alumni Chapter. We also 
partner and coordinate with key veteran support organizations and 
resources throughout the local community. We place significant emphasis 
on providing a supportive environment and culture by instituting 
programs at three key stages for veterans at Texas Tech University-
transition to campus, campus support, and job search and employment.

1. Transition from Military to Academic Life

    a. Tech Vet Boot Camp - Before the start of each Fall and Spring 
semester, MVP hosts Tech Vet Boot Camp. Our two-day Boot Camp is 
designed to help veterans transition to college life by providing best 
practices in study skills, time management, writing, and money 
management. Special guests include the Brain Performance Institute 
offering high performance brain training program known as Strategic 
Memory Advance Reasoning Training. TechVet Boot Camp is a great way to 
meet other veteran students and network at the start of the semester. 
As non-traditional students, peer to peer interaction with other 
veterans is vital to establishing social connections in their new 
academic setting. We are developing an expanded program of one week 
duration that will incorporate additional math and writing and 
information on community resources.

    b. Stars and Stripes Lounge - Centrally located in the Student 
Union Building, our Stars & Stripes Lounge opened in Spring 2014. It 
serves as a study and social area for military and veterans and is 
furnished with tables, computer terminals, a big screen TV.

    2. Providing a Support System and Culture for Veteran Success on 
Campus - As a preface to outlining veteran support, I must tell you 
that the vast majority of our military and veteran students are 
emotionally mature, goal oriented, mission-driven, and self-sufficient 
role models. Academically, they perform equal to or better than our 
general student population. However, based on their unique military 
service experiences that may include combat, some veterans do 
experience social, administrative, financial, and physical or mental 
health challenges in transitioning from military to the classroom.

    As a starting point for campus support, there are over 300 faculty 
and staff members who are veterans at Texas Tech. These faculty members 
serve as role models, advisors and mentors for current student 
veterans.
    Another key component of our support structure is a comprehensive 
Green Zone training program that incorporates 7 distinct training 
modules for faculty and staff.

    a. Green Zone -Our Green Zone program is tailored to provide 
increased awareness and understanding of our veteran population and 
guidance on where to refer them for assistance. Over 700 TTU faculty 
and staff members have attended one or more of 7 training modules. Our 
unique multi-module approach, incorporating training by subject matter 
experts in key support areas on campus, allows faculty and staff to 
gain a more comprehensive understanding of veteran challenges, how to 
recognize them, and where to refer veterans for assistance.

    i. Module I: Core Training is open to all faculty and staff members 
as the first module of veterans' advocacy training and a prerequisite 
for all other modules. This course is designed to assist faculty and 
staff to better serve student veterans and their family members on 
campus. Attendees learn about the transition issues veterans face as 
they as they leave military service and enter campus life, specific 
information about Texas Tech's veteran students, and insight about 
campus and community resources. Green Zone module I must be taken 
before subsequent training modules can be scheduled.

    ii. Module II: Understanding Benefits is taught by MVP certifying 
officials for faculty and staff who are interested in an overview of 
how federal and state veterans' benefits work. Learning objectives 
include having a basic understanding of federal, state, and DOD benefit 
programs offered at TTU including eligibility & awards, and basic 
responsibilities required of the university and the students.

    iii. Module III: Mental Health is taught by Student Counseling 
Services for faculty and staff members who are interested in gaining a 
greater understanding of mental health issues faced by veterans and 
service members. Attendees will increase their understanding of mental 
health concerns sometimes faced by veterans and service members; 
decrease the stigma of mental health concerns such as depression, 
anxiety, and PTS; explore the nature of interpersonal violence and 
sexual assault and; be provided with referral resources.

    iv. Module IV: Student Disability Services is for faculty and staff 
members who are interested in a basic overview of how TTU Student 
Disability Services works with veterans and service members on campus. 
Learning objectives include understanding Student Disability Services 
programs and services offered, learning how students can register; 
gaining a basic understanding about applicable federal/ state laws and 
guidelines; understanding student responsibilities; and gaining greater 
familiarity with resources and support available to faculty and staff 
on campus.

    v. Module V: Advising Veterans is taught by senior MVP staff for 
faculty and staff advisors of veterans and family members on campus. 
Learning objectives include a veteran `snapshot' and their 
expectations, responsibilities of the advisor in the context of 
Veterans Educational Benefits, responsibility of the school in 
reporting to the state/federal government, and best practices in 
advising veterans.

    vi. Module VI: Hiring Veterans is presented by Human Resources and 
open to faculty and staff members who are interested in hiring veterans 
at Texas Tech University in their department. Trainees will learn about 
the soft skills that all veterans bring to the workforce, how to use 
the ``Veterans' Only job posting'', and ``Veteran Direct Appointment 
hiring initiative'' authorized by state law.

    vii. Module VII: Other veteran, military, or family related topics 
are explored in this module. Guest speakers from on or off campus may 
present on topics of interest to the military and veteran community.

    b. Veteran Liaisons - In addition to our faculty and staff 
veterans, we have over 35 veteran liaisons in each academic college and 
major staff support function who are dedicated to veteran success. They 
provide front-line support for veterans who have questions or need 
assistance in their respective colleges or offices. A pre-requisite is 
attendance at Green Zone Module 1, Core Training. Liaisons meet with 
the Military & Veterans Programs Office staff quarterly to share 
information and report specific veteran related information.

    3. Transition to Employment - As veterans succeed in earning their 
degrees, their next step after graduation is finding employment and 
beginning their career. Career preparation begins before they complete 
their degree program. The University Career Center has developed a 
Veterans Career Program for veterans to receive the assistance they 
need to be successful in preparing for their future careers. A career 
center counselor meets with them to identify individual career needs 
and creates a career development plan. Among the services provided are 
career testing, job search resources, career workshops, mock 
interviews, and translating military experience into career readiness.

    a. Camo to Corporate Program - In Spring 2017, Military & Veterans 
Programs partnered with the University Center to develop a pilot Camo 
to Corporate Programs.

    i. This program is for graduating veteran seniors designed to 
better prepare them for job search and employment

    ii. Students signed agreements to participate in six (6) evening 
sessions including a Strong interest inventory, resume and cover letter 
writing, networking, interviewing, etiquette, and proper dress

    iii. As part of the program, veterans who complete all sessions 
acquire valuable skills job search skills and a tailored business suit 
to prepare for the professional world after graduation

    b. Military & Veterans National Alumni Chapter - In May 2016, 
recognizing the value of a broad network of military and veteran alumni 
across the state and nation, we created a Military & Veterans National 
Alumni Chapter. One of the primary goals of our chapter is to connect 
current students and graduating seniors with alumni who are serving in 
business, corporations, government, and the military. We have begun 
connecting alumni employers who may provide internship, mentoring, and 
employment opportunities to our students through the career center and 
Camo to Corporate program. Additionally, the alumni chapter benefits 
students by providing education scholarships for veteran students.

    We are proud of our Texas Tech veterans and do our best to 
recognize them at every opportunity. One way we do this is our unique 
camouflage stole that we award at a special ceremony the day before 
graduation. The stole is highly visible when veterans walk at 
graduation and they are singled out for their service by leadership at 
each graduation ceremony.
    This is a brief overview of the Texas Tech programs that support 
the remarkable men and women veteran students who have served our 
nation. Central to our success is the strong commitment of campus 
leadership in providing the resources, facilities, and support that 
extends across our administration, faculty, staff, and local community. 
We very much appreciate the support of the House Economic Opportunity 
Subcommittee in providing your leadership, legislation, and resources 
for our veterans at Texas Tech and across the nation. Thanks for the 
opportunity to speak to you today. I look forward to your questions.

                                 <F-dash>
        Prepared Statement of Staff Sergeant Nicole Meyer, USAF
    Staff Sergeant Nicole Meyer, USAF (Honorably Discharged)
    Enlisted in the United States Air Force on November 16th, 2010.
    Attended Basic Military Training, Joint Base San Antonio- Lackland, 
Texas. November 2010- January 2011.
    Attended Technical Training in Material Management, Joint Base San 
Antonio- Lackland, Texas. January 2011-March 2011
    Stationed at 49th Logistics Readiness Squadron, Holloman Air Force 
Base, New Mexico, April 2011-June 2014. 49th Aircraft Maintenance 
Squadron, June 2014- August 2016.
    Deployed 455th Expeditionary Logistics Readiness Squadron, Bagram 
Air Base, Afghanistan, October 2013-May 2014
    Deployed 451st Expeditionary Aircraft Maintenance Squadron, 
Kandahar Air Base, Afghanistan, January 2015-June 2015.

    I began my separation process from the Air Force a year prior to my 
separation date. I began researching schools and trying to learn how 
the Post 9-11 GI Bill worked. I attended the Transition Assistance 
Programs (TAPS). Very little of the week-long class helped me with the 
transition from Active Duty to Civilian. The majority of the class 
focused on searching for jobs and building a resume. But because I was 
headed to college, very little of it applied to me. TAPS went very 
briefly over the process of filing a claim, but mainly focused on going 
through an individual on base that would help you go over everything in 
your medical record to submit your claim. I was unable to use this 
person due to time constraints, and had to figure out how to file a 
claim on my own through E-Benefits. The class never went over 
assistance organizations such as Disabled American Veterans, or 
Veterans of Foreign Wars having Veteran Service Officers that could 
assist with filing a claim.
    Dealing with the Veterans Affairs (VA) Medical System has been a 
long, convoluted process. This began with my initial claim for 
disability, during which I was denied for my chronic back problems that 
had been on-going for three years at the time. The doctor I was sent to 
for my compensation and pension exam is well-known by local veterans to 
recommend that Veterans did not incur their injuries while in-service. 
The decision I was handed by the VA stated that there was no evidence 
of a disability for my back. I have since been diagnosed with having 
developed scoliosis while on Active Duty. My appeal for disability 
concerning my back has been on-going for a year.
    As a woman, it can be difficult to receive medical treatment for 
women's health issues. Anything other than very basic processes, such 
as prescribing medication, is referred out to the Veterans Choice 
Program. Unfortunately, funding is tight, and many providers no longer 
accept the Choice program. As of 2015, there are over 2 million female 
Veterans in the US. I do not understand why receiving treatment for 
women's health issues is such an arduous process. It took well over two 
months to finally see a women's health doctor to get treatment for a 
reoccurring health issue.
    When I first contacted the Veteran's Educational and Transitional 
Services (VETS) Office at Angelo State University, they were extremely 
helpful in explaining the process of applying for my education 
benefits. They offered much more help than the TAPS program, or the 
Education Office at Holloman Air Force Base. Most of the time, the 
Education Office either never answered the phone, or were too busy to 
assist with questions. When I finally was able get hold of them, the 
Education Office would give me very brief and general answers on 
Education Benefits available. The VETS Office at Angelo State 
University is the first organization I have encountered that actually 
bothered to answer my questions. The only time I had any problems with 
my benefits was when the VA was late on my Basic Allowance for Housing 
payment for the first month. This was however, due to an oversight on 
my part, not realizing that I needed to inform the VA that I was no 
longer Active Duty.
    Thank you for taking the time to listen to me today. I hope that 
today can result in improvements to the current process, and that more 
Veterans are able to get the help that they need.

                                 <F-dash>
                Prepared Statement of Ikaika (Kai) Iuta

    Chairman Arrington, Ranking Member O'Rourke, and Members of the 
House Veterans Affairs Economic Opportunity Subcommittee, thank you for 
the opportunity to speak to you today.
    My name is Ikaika Iuta, but everyone calls me Kai. I am from 
Hawaii. After graduating high school, I attended a junior college in 
California for one year. I couldn't afford to go back to that school 
the following year. This led me to enlist in the U.S. Army in 2010. I 
was assigned to the 2nd Infantry Division 3rd Stryker Brigade Combat 
team as a Motor Transportation Operator in Fort Lewis, WA. From 2011-
2012, I was deployed to Kandahar, Afghanistan attached to the 10th 
Mountain & 82nd Airborne Divisions. In 2013, my unit was assigned in a 
joint operation as the Global Response Force with the 82nd Airborne. I 
got out of the military in February of 2014. That same year I continued 
my education at Green River Community College in Auburn, Washington 
earning my Associate of Arts degree. In 2015, I enrolled at Texas Tech 
University. I am currently studying Psychology and graduating in 
December.
    My transition out of the military was okay but not perfect. During 
the Army Career & Alumni Program or A.C.A.P, I was equipped with many 
resources but no knowledge on how to access them or how these things 
can apply to my particular situation. For example, ACAP helped me 
create a resume and get a job but I didn't know where I was going to 
live or what kind of services were offered for housing or help in 
getting housing. If it wasn't for the kindness of friends, I would have 
been homeless coming out of the military and another statistic to the 
veteran demographic. ACAP also helped me with information about the GI 
bill but it was unclear on how it worked. For example, during this 
time, the Post 9/11 GI bill only covered in-state tuition and veterans 
who were out of state would have to pay out of state tuition. This 
means the GI bill would only cover the in-state tuition part leaving 
the veteran to pay for the rest. However, there were certain states 
that gave in-state waivers for veterans. I was lucky enough to live in 
a state that offered this. During my time at Green River Community 
College, I felt awkward and out of place. My identity as a soldier was 
slowly stripped away and my service seemed like it was a different 
lifetime. My daily rituals consisted of going to school and work. I 
made no friends and wasn't connected to the campus or community. In 
August 2015, I transferred to Texas Tech University hoping to finish my 
degree and make new friends. I chose Texas Tech University because 
during that time it was ranked in the top 10 for military friendly 
universities.
    Upon my arrival to campus, I was culture-shocked because I had 
never been this far east of the United States and I had never been to 
the south. My first stop on campus was the Texas Tech Military Veterans 
Program where I was given a lot of information and resources for 
veterans. They also encouraged me to sign up for the veteran student 
organization on campus which is called Veterans at Texas Tech or VATT. 
This organization was a great help because I connected with a lot of 
veterans and they shared their experiences as a student at Texas Tech. 
MVP also hosted a welcome event where new student veterans came 
together and veteran Lubbock organizations were there for information. 
The following semester I signed up for the veteran orientation program 
also known as Tech Vet Boot Camp. The program gave me an in depth 
training to the resources offered for veterans at Texas Tech. For 
example, I learned that Student Counseling Services offers 6 free 
counseling sessions to any student. I also learned that when you 
graduate from Texas Tech you are awarded a military stole. This may not 
seem to mean much or that significant but this little thing speaks 
volumes to me because this shows the school recognizes that veterans 
who are students at Texas Tech, are a part of a distinct important 
demographic of the student population. Since being here at Texas Tech I 
have been able to find community and I don't feel as isolated as I was 
at my other school.
    I think the most important thing to help service members who want 
to come back school is recognizing who they are and reaching out to 
them. Providing a resource such as the Military Veterans Program at 
Texas Tech allows veterans to get connected and help them with their 
educational needs. Sitting in a classroom with kids 10 years younger 
than you can make you feel out of place and isolated. However, 
providing a support system that recognizes veterans and their distinct 
situations will make them feel a part of something.
    I will graduate in December and look forward to receiving my 
graduation Texas Tech stole. My future plans is to go on to graduate 
school and study Industrial/Organizational Psychology. My future plans 
is to go on to graduate school and study Industrial/Organizational 
Psychology.
    Thank you for time today. I look forward to your questions.

                                 <F-dash>
       Prepared Statement of Colonel David J. Lewis, USAF (Ret.)
    Introduction

    Thank you Chairman Arrington and Ranking Member O'Rourke for the 
opportunity to testify at this hearing.

    By way of self-introduction, I am the Director of VetStar, the 
veterans division of StarCare Specialty Health System. StarCare is the 
Local Mental Health Authority for Lubbock and four other Texas 
counties; however, our program serves up to thirty counties in the 
Texas Panhandle and South Plains. I am also an Assistant Professor of 
Practice in the Political Science Department and the Director of 
Strategic Studies under the Texas Tech University's Institute for Peace 
and Conflict. I retired from the United States Air Force after nearly 
twenty-nine years of active duty, with combat tours in the air as well 
as on the ground during Operation DESERT STORM. I spent two years with 
the U. S. Army, two years at the U.S. Naval War College, with duty as a 
Professor of Strategy, and two years commanding a foreign F-16 fighter 
squadron from the Republic of Singapore. Following my retirement in 
2009, I was the founder and first Director of the Texas Tech Military 
and Veterans Program. The observations in this testimony are a direct 
result of our work with veterans in our region through seven years of 
efforts in VetStar. My testimony does not reflect the official views of 
either StarCare Specialty Health or Texas Tech University; however, I 
believe my comments are consistent with the values and positions of 
those organizations.
    VetStar was created to assist veterans by connecting them to the 
resources to make them successful in the next stage of their life. Over 
the years, we have narrowed our direct service focus to assisting those 
veterans who are struggling in their transition from military to 
civilian life, and provide referral assistance for all other areas of 
interest to our veteran population. Our focus, therefore, is ``filling 
in the gaps'' where the VA is unable to do so.
    VetStar has four primary service lines; first, peer to peer 
services through the State of Texas Military and Veteran Peer Network, 
or MVPN. MVPN was created to provide a first-line of defense for the 
mental health challenges of Texas veterans. This program is funded 
through the Department of State Health Services, and administered by 
the Texas Veterans Commission. Next is a grant from the Fund for 
Veteran Assistance under the Texas Veterans Commission. This grant 
allows us to provide emergency financial assistance on a one-time basis 
to South Plains veterans who are experiencing a financial crisis. 
Additionally, we have a Supportive Services for Veterans and Families 
grant from the VA to provide assistance to veterans and families who 
experience homelessness, or are at risk of becoming homeless. Finally, 
we have a grant from the Texas Health and Human Services Commission to 
provide mental health under the Texas Veterans + Family Alliance 
program. We primarily target justice-involved veterans for this mental 
health grant.
    VetStar also provides meeting space and chairs the monthly Veterans 
Resource Coordination Group (VRCG) meeting in Lubbock. The goal of the 
VRCG is to bring all veteran serving agencies together on a monthly 
basis to identify gaps and/or excessive overlap in veteran services in 
our region, as well as provide a forum for education and information 
awareness. VetStar has a robust relationship with the MVP office at 
Texas Tech University, as well as Lubbock Christian University, Wayland 
Baptist University and South Plains College.
    Because of my experience delivering services to veterans in 
transition, I created the model we use extensively at VetStar - the 
FASTRR model. The acronym is as follows: F- Find, A-Assess, S-
Stabilize, T-Treat, R-Reassess, R-Reintegrate. The details are as 
follows:
    Find - Veterans that struggle with their transition issues tend to 
isolate themselves. This is due to a variety of reasons, including 
trust and stigma issues associated with seeking assistance. Nearly all 
of them have someone in a trusted relationship; a spouse, a parent, a 
close friend etc. I consider them to be our ``eyes and ears'' in the 
community. Many times, the trusted relation knows the VA may be able to 
help, but they are generally unaware of community-based resources. 
Essentially, isolated veterans must be ``found.'' Unfortunately, one of 
the more common places to find them is in the local jails and detention 
centers, a result of some type of justice involvement. Substance use 
issues such as Public Intoxication, Driving Under the Influence, or 
Possession of a Controlled Substance are indicators of a veteran 
struggling with their transition, and indicators that the veteran is 
attempting to solve issues on their own. Our goal is to find them prior 
to justice involvement, or Intercept ``0'' in the GAINS Center 
Sequential Intercept Model. \1\
---------------------------------------------------------------------------
    \1\ Substance Abuse and Mental Health Services Administration GAINS 
Center Sequential Intercept Model
---------------------------------------------------------------------------
    Assess - Once a struggling veteran is identified, we want to assess 
for 1) Ideations of suicide, 2) Major substance abuse issues, and 3) 
Homelessness, or some combination of these. The initial assessment 
determines our course of action for appropriate intervention. This is 
essentially a triage operation, and it helps us develop a success plan 
to move the veteran forward with their life.
    Stabilize - Stabilization is the foundation for therapeutic work, 
and it begins to empower our veterans to regain control of their 
situation. We utilize a VA developed program known as Seeking Safety to 
provide stability to veterans with co-occurring trauma and substance 
use issues. Seeking Safety is present-based therapy that is designed to 
keep you safe today, and in the future. It is highly scripted, and very 
effective. We prefer to have our veterans complete Seeking Safety prior 
to treatment, as it significantly improves their chances of 
successfully graduating the treatment program. Stabilization is also 
found through the Housing First model for veteran who are homeless. 
Once housing is secured, the veteran receives a ``housing stability'' 
plan that includes wrap-around services as needed.
    Treat - Treatment is based on evidence-based therapies provided by 
the VA, or other local/regional providers if the veteran is not 
eligible for VHA services. There is significant stigma associated with 
seeking treatment, and we may start the veteran with Equine Assisted 
Therapies to get them started. This non-traditional approach is highly 
effective in our service area.
    Reassess - Coming out of the ``treat'' phase, or directly from 
earlier steps if treatment is not required, VetStar uses a unique 16-
point veteran success plan to identify vulnerabilities and capitalize 
on veteran strengths in order to make them successful. We look at a 
variety of issues such as Health, Mental Health, Transportation, 
Employment, Family Support etc. to develop a tailored plan to maximize 
the probability of success for the veteran and their family.
    Reintegrate - Arguably the most critical component of our model 
after FIND, our goal is to change the environment and alter the 
veteran's perception of where they belong in our community. Programs 
such as VetLife and Team Red White and Blue give the veteran a chance 
to be with other veterans in a peer-based model. Without this critical 
step, the temptation is too great for the veteran to return to the same 
behaviors and locations that created the challenges. I strongly believe 
that reintegration can resolve many of the issues faced by the veteran, 
especially if it is delivered in a peer-based setting. One technique we 
use is a program called Task Force Lubbock, where we bring veterans 
together to do community service projects. The outcome is less about 
the service project itself, but rather focused on bringing veterans 
together for informal peer support (group therapy). Bluntly stated, our 
military was trained to break things and kill people; using those 
skills to create and repair is very therapeutic.
    Understanding the concept of Stalled Transition - Stalled 
transition is a phrase I use to communicate the concept of a veteran 
struggling in their transition from military to civilian life. This 
struggle may be very brief, as it is for most servicemembers, or it may 
persist for decades due to personal struggles with PTSD, Moral Injury, 
MST, TBI or substance use issues. Using this term helps us understand 
the ``hand-up'' versus ``hand-out'' concept. The vast majority of 
``stalled'' veterans require a relatively small investment to get them 
back into our society, including meaningful family relationships and 
gainful employment. The veteran is stalled, not permanently stuck or 
``broken'' which is an especially harmful stereotype.

General Comments

    The majority of our veterans transition from military to civilian 
life with few or no issues. Our observation in the South Plains service 
area is roughly 6% of our veteran population is struggling with their 
transition. \2\ This means roughly 19 out of 20 veterans are being 
successful in their transition, with few or no issues. We should always 
keep in mind that the vast majority of veterans make superb students 
and employees, despite stereotypes that are placed upon them.
---------------------------------------------------------------------------
    \2\  Substance Abuse and Mental Health Services Administration 
GAINS Center Sequential Intercept Model
---------------------------------------------------------------------------
    For those that struggle however, the ``death spiral'' can occur in 
the following manner:

    <bullet>  Veterans may be leaving the military with Post-Traumatic 
Stress Disorder (PTSD), Traumatic Brain Injury (TBI), Moral Injury or 
Military Sexual Trauma (MST) issues
    <bullet>  As a result, returning servicemembers may not relate to 
family and/or friends, and may struggle to identify and communicate 
their issues
    <bullet>  Inability to communicate, and reluctance to seek 
treatment can lead to self-medication \3\, justice involvement, 
domestic violence \4\ and family breakup \5\, job loss or rapid 
switching of jobs, loss of income and/or housing, and may lead to 
homelessness
---------------------------------------------------------------------------
    \3\ Self-medication is widely used, but not an accurate term. Using 
substance for emotional control is more accurate
    \4\ Families of Veterans with PTSD have more family violence, 
verbal aggression, and female partners of Veterans with PTSD reported 
perpetrating more acts of family violence than did their partners. 
Retrieved from https://www.ptsd.va.gov/professional/treatment/family/
partners--of--vets--research--findings.asp
    \5\ Approximately 38% of Vietnam veteran marriages failed within 
six months of the veteran's return from Southeast Asia. Similar trends 
are occurring with veterans of our current wars.
---------------------------------------------------------------------------
    <bullet>  While the ``spiral'' is not the sole cause, tragically, 
20 veterans die by suicide every day in our country

    Our veterans have earned the right to be successful in their 
transition from the military, and especially to be successful as they 
pursue the educational opportunities they earned as servicemembers. A 
successful academic veterans program consists of many parts, such as 
recruiting and transition/orientation to the university, but the most 
important task, in my assessment, is retaining the veterans in academic 
or other training programs. Dropping out can occur for a variety of 
reasons, but if the veteran is experiencing ``stalled transition'' then 
community partnerships with organizations capable of applying 
appropriate interventions are essential. Traditional university 
programs, such a student counseling services, are typically quite good, 
but they may lack the cultural competency and timeliness to effectively 
address issues such as TBI, MST, PTSD, or moral injury.
    Veterans who experience stalled transition may not have symptoms 
until several months after they separate from the military. If symptoms 
develop during their educational experience then they may be isolated 
from necessary support structures. Successful intervention begins with 
the ability to FIND the struggling veteran, through eyes and ears in 
the community, organizational relationships and family resource 
awareness. VetStar's close working relationship with the Texas Tech 
University MVP office allows for near seamless awareness and 
coordination to address challenges, and intervention as required to 
preclude the veteran from leaving the university. This may be as simple 
as emergency financial assistance, or more complex challenges may 
present, and required more in-depth interventions. The VetStar process 
in place today is relatively effective, but it is a reactive process, 
relying on many different agencies to get the struggling veteran to our 
services. As a result, far too many veterans are falling through the 
cracks and, tragically, wind up in some portion of the death spiral.

Looking Forward

    My recommendations to this committee on improving both educational 
outcomes for veterans, and community success outcomes in general, fall 
into four categories:

    <bullet>  Community Transition Programs
    <bullet>  Community Awareness
    <bullet>  Peer Support
    <bullet>  Rural Challenges

    Community Transition Programs (Boots to Roots): One of the perils 
of an all-volunteer force is that communities are not well equipped to 
deal with the challenges a servicemember may face upon their return to 
the community, and veterans are unaware of the resources available to 
them if they do find themselves in the spiral. The Department of 
Defense does a remarkable, and unrivaled, job of training warriors to 
go to war; however, training them to come home again is marginal at 
best. The skill set that keeps you alive in combat, such as heightened 
arousal, hostile appraisal of events, making quick, unilateral 
decisions, sticking to the mission, and keeping your emptions sealed 
away are not good skills once you return home. Many veterans who face 
stalled transition issues find themselves on a new battlefield upon 
their return; one they were not trained for. The Boots to Roots concept 
has three components: First, an awareness of who can provide peer 
support in the community, and the associated mental health, employment, 
education and other resources; and second, a process to assist in 
``detuning'' or desensitizing the limbic (mid-brain) psychological 
training that many of our warriors go through during their initial 
training in the military. \6\ Finally, for those intending to pursue 
advanced education, or anyone exposed to IED blasts, an eye exam to 
identify and correct any vision problems that may preclude their 
success in the classroom. \7\
---------------------------------------------------------------------------
    \6\  For additional discussion on this issue see On Killing by LTC 
Dave Grossman. The U.S. military used psychological "reprogramming" 
training techniques to raise killing rates from 15% in WW II to 95% in 
Vietnam
    \7\ See the VA's Clinical Recommendation for Eye and Vision Care 
following Blast Exposure and/or Traumatic Brain Injury Retrieved from 
https://www.va.gov/optometry/docs/VCE--OMS--Eye--Care--Provider--CR--
11FEB2015--FINAL.pdf
---------------------------------------------------------------------------
    Community Awareness (Communities of Courage): We are an all-
volunteer force, and have been since 1973. This has resulted in a 
civil-military divide as a consequence, and many communities are 
unprepared to comprehend and manage the challenges of a returning 
warrior force, especially when it comes to PTSD, Moral Injury and TBI 
issues. Communities naturally want to honor their warriors upon their 
return with a Support the Troops bumper sticker, or annual parade, but 
the community must invest in their returning warriors. Those who 
struggle, isolate, and wind up justice-involved should find 
compassionate and culturally competent options in the community, 
including specialty courts known as Veterans Treatment Courts (VTCs) 
\8\. America's conflicts are morally ambitious around the world, but to 
those who fight them, especially in counter-insurgency operations, they 
can be morally ambiguous. We tend to view World War II as our 
``touchstone'' war, yet today's conflicts bear very little resemblance 
to that war. Much of our nation's perspective, good or bad, is 
delivered via Hollywood, or social media, and lacks the comprehension 
of what it means to serve in today's military. Communities can spend 
enormous sums of taxpayer dollars addressing the challenges from a 
traditional justice perspective; instead, the focus should be on 
understanding and treatment, which can reduce recidivism significantly. 
Formal studies are sparse, but my experience shows that only 6% of 
veterans engaged by VetStar in our justice-involved program will re-
offend. A 2016 National Institute of Justice survey found just one 
court reporting any recidivists, and preliminary 11.4% recidivism rates 
compared to 66% via traditional criminal court processes. \9\ These 
data are very preliminary, but the VTC is modeled after the successful 
National Association of Drug Court Professionals model, and shows good 
promise to date.
---------------------------------------------------------------------------
    \8\ Justice for Vets, a division of the National Association of 
Drug Court Professionals, has established training and standards for 
Veterans Treatment Courts
    \9\ Hartley, R., & Baldwin, J. (2016). Waging War on Recidivism 
Among Justice-Involved Veterans: An Impact Evaluation of a Large Urban 
Veterans Treatment Court. Criminal Justice Policy Review retrieved from 
http://journals.sagepub.com/doi/abs/10.1177/0887403416650490
---------------------------------------------------------------------------
    Once a servicemember separates from the military and returns to the 
community, the community ``owns the challenge.'' Conversely, the 
community reaps the dividends from getting the veteran back on step and 
involved in the community. Communities can facilitate the veteran's 
involvement with other veterans by providing peer support drop-in 
centers that can begin the important dialogue.
    One final observation regarding the community is that I frequently 
hear professionals (Social Work, Mental Health and others) lament the 
fact that they want to help, but the veteran typically won't respond to 
their ``traditional'' methods of engagement. To combat this, I have 
created a Veterans Studies program here at Texas Tech to help develop 
the cultural competencies needed to help our workforce understand the 
``lifecycle'' of our military, including recruitment, boot camp, 
military life, deployment and redeployment and all the associated 
traumas that may be encountered along the way. This class is in its 
first offering this semester, but the challenges will be with us for 
decades to come. I think it is a valuable investment for our current 
and future workforce.
    Peer Support: The VetStar model is based on a Search and Rescue 
concept; very familiar to most of those who served in the military. Our 
greatest strength is the direct veteran to veteran contact to build 
trust, and then trust by extension into culturally competent service 
providers. Once a veteran is ``found'' we provide the peer support 
necessary to get the struggling veteran headed in the right direction. 
This may begin with a casual conversation over coffee, or may require 
direct intervention in support of a law enforcement or crisis team 
response to a veteran in full crisis. Understanding developed by 
someone who has ``been there, done that'' even with different branches 
of service, or different eras of service is an important step in 
gaining the trust of the struggling veteran. Virtually every step we 
take in VetStar begins with the all-important peer to peer connection. 
Peer support must be recognized by both the VA and the community as an 
essential element of success for servicemembers upon their return.
    Rural Challenges: The Department of Defense perfected recruiting in 
the rural areas; this is generally considered to be beneficial 
economically as job markets in rural areas tend to be less flexible. 
Military training opportunities can bring technical skills to a 
population that may typically find them unavailable. The challenge, 
however, is delivering services to rural veterans once they return to 
their communities. Many non-scientific studies estimate the percentage 
of rural recruits to be somewhere between 35% and 44% of the total 
military population. Many exceptional programs, such as the highly 
successful Welcome Back Veterans (WBV) program, are found exclusively 
in urban areas. \10\ In our area, fewer than 40% of eligible rural 
veterans access their care through the VA system. \11\ VetStar has 
formed a collaborative with the Texas Tech University Health Sciences 
Center's F. Marie Hall Institute for Rural Health to leverage state of 
the art telemedicine capabilities into veterans residing in a twenty-
county rural area of the South Plains in an effort to overcome this 
lack of access to VA care. VetStar provides ``Pathfinders'' and the 
Institute for Rural Health provides the telemedicine.
---------------------------------------------------------------------------
    \10\ See the excellent discussion about WBV from RAND Corporation 
retrieved from https://www.rand.org/health/projects/wbv.html
    \11\ Retrieved from VA National Center for Veterans Analysis and 
Statistics GDX--16 data set
---------------------------------------------------------------------------
    In short, every man and woman who put their hand in the air to 
volunteer to serve their country deserves the same level of services 
upon their return; it is more difficult to provide those services in 
rural areas.

Conclusion

    Our veterans have earned the very best possible education 
opportunities that we can provide for them. A smooth transition from 
military service to the civilian world is essential for veterans to 
take full advantage of the opportunities provided through our country's 
commitment to our military forces, past and present. We can overcome 
transitions that have stalled. My experience has taught me that our 
communities must be engaged in this transition; the VA cannot do it 
alone. Programs such as Communities of Courage and Boots to Roots as 
well as Veterans Studies workforce training can fill the gaps that 
exist today. We are not victims; we are not broken. But, occasionally, 
we will need a hand-up to get us fully transitioned into the civilian 
world.
    Thank you for this opportunity.

                                 <all>
</pre></body></html>
